U.S. Department of Agriculture
 Office of Inspector General
 Financial and IT Operations
         Audit Report



COMMODITY CREDIT CORPORATION’S
   FINANCIAL STATEMENTS FOR
        FISCAL YEAR 2000




              Audit Report No.
              06401-14-FM
              June 2001
                UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20250




DATE:        June 27, 2001

REPLY TO
ATTN OF:     06401-14-FM

SUBJECT:     U.S. Department of Agriculture
             Commodity Credit Corporation’s Financial Statements for
             Fiscal Year 2000

TO:          Board of Directors
             Commodity Credit Corporation


This report presents the results of our audit of the Commodity Credit Corporation’s
(CCC) financial statements for the fiscal year (FY) ending September 30, 2000. This
report contains our disclaimer of opinion on the FY 2000 financial statements and the
results of our assessment of CCC’s internal control structure and compliance with laws
and regulations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective action taken or planned, including the timeframes, on
our recommendations. Please note that the regulation requires a management
decision to be reached on all findings and recommendations within a maximum of 6
months of report issuance.

We appreciate the courtesies and cooperation extended to us during the audit.


/s/

ROGER C. VIADERO
Inspector General
                         EXECUTIVE SUMMARY
                    U.S. DEPARTMENT OF AGRICULTURE
                    COMMODITY CREDIT CORPORATION’S
                          FINANCIAL STATEMENTS
                           FOR FISCAL YEAR 2000
                      AUDIT REPORT NO. 06401-14-FM


                                       Our audit objectives were to determine whether
          PURPOSE                      (1) the Commodity Credit Corporation's (CCC)
                                       financial statements present fairly, in all
                                       material respects, the assets, liabilities, and net
          position; net costs; changes in net position; budgetary resources; and
          reconciliation of net costs to budgetary obligations in accordance with
          generally accepted accounting principles; (2) CCC's internal control
          structure provides reasonable assurance that control objectives were
          achieved; (3) CCC had complied with laws and regulations for those
          transactions and events that could have a material effect on the financial
          statements; and (4) the information in the Management Discussion and
          Analysis, and Supplemental Financial Information sections was materially
          consistent with the information in the financial statements.

                                      For the third consecutive year, we have been
     RESULTS IN BRIEF                 unable to issue an unqualified opinion on
                                      CCC’s financial statements. For the fiscal year
                                      (FY) ended September 30, 2000, CCC
         received a disclaimer of opinion because the Corporation was not able to
         provide sufficient and competent evidential matter to substantiate certain
         material financial statement line items, within the timeframes established by
         the Department.

           Although CCC had reported that it had taken actions to correct some of the
           serious problems we noted in our FY 1998 report, we found during our FY
           1999 and FY 2000 audits, the problems had not materially improved. In
           addition, CCC experienced some problems relating to conversion of its
           domestic program operations to a new accounting system, which also
           impacted the availability and timeliness of accounting data. For FY 2000,
           CCC took substantial time after the deadline established by the Department
           (November 24, 2000), and processed billions of dollars in adjustments, to
           provide us on April 25, 2001, its financial statements for the FY ended
           September 30, 2000. However, our audit coverage still disclosed material
           errors in the April 25, 2001, financial statements, for CCC foreign loan


USDA/OIG-A/06401-14-FM                                                             Page i
          accounting operations, resulting in us providing CCC a disclaimer of opinion
          on these financial statements. The CCC needs to substantially strengthen
          its internal controls over its foreign loan accounting operations to correct the
          errors, omissions, and inconsistencies contained in its financial statements.
           In addition, CCC needs additional resources to assure it has the necessary
          knowledge, skills and abilities to effectively and accurately perform
          accounting functions for the Corporation’s foreign loan operations. Our
          audit of this year’s financial statements continued to find that financial
          reports are inaccurate, accounting operations are not reliably performed,
          and appropriate supervisory controls are not in place.

          Unless actions are taken to resolve these problems, achieving the reforms
          required by recent financial management legislation will not be
          accomplished; departmental and CCC officials will not have accurate and
          timely financial information necessary to effectively and efficiently manage
          their operations; know the cost of CCC operations; or any other meaningful
          measure of financial performance. In essence, poor accounting and
          financial reporting obscures facts. As a result, users of information reported
          or taken from the underlying accounting systems, risk making errant
          decisions, whether for budget purposes or operationally, when they rely on
          questionable information. With assets of over $14 billion, and costs of $30
          billion, it is essential reforms are made by CCC.

          Our Report on CCC's Internal Control Structure discusses the following
          internal control weaknesses:

             •   Credit reform accounting for CCC continues to be plagued by
                 systematic problems and pervasive errors. We found many material
                 errors went undetected because system and operational
                 improvements were needed and more effective supervisory oversight
                 was needed. We have advised CCC officials about this problem
                 since our 1998 audit. While some actions have been taken, further
                 improvements are necessary.

             •   CCC personnel did not effectively monitor general ledger account
                 balances, or perform necessary reconciliations and analyses to
                 ensure the yearend account balances were accurate. As a result,
                 CCC posted over $27 billion in adjustments after the “initial” final
                 statements were provided to us on February 1, 2001. These “initial”
                 final statements were, in fact, due to us by November 24, 2000.
                 Also, numerous account balances were unsupported and/or
                 contained significant, abnormal amounts.         The problem with
                 abnormal balances in accounts has been reported to CCC officials
                 by Office of Inspector General (OIG) in previous audit reports, but
                 actions taken by CCC officials have not been effective.

USDA/OIG-A/06401-14-FM                                                            Page ii
               •   Different credit reform accounting processes were followed by CCC
                   budget and accounting units. This causes additional workload for the
                   CCC staff. Also, the failure, in our opinion, to follow established
                   accounting standards for the budget process has lead to potential
                   misstatements in the budget, and unnecessary complexities in
                   reconciling the two multi-billion dollar amounts in the financial
                   statements.

               •   CCC has not documented its internal control structure for its new
                   CORE Accounting System.

               •   Our recent review of security over CCC’s information technology (IT)
                   resources disclosed vulnerabilities that could impact program
                   operations.

     Our Report on CCC Compliance with Laws and Regulations noted the following
     problems:

               •   CCC was not in compliance with the Federal Financial Management
                   Improvement Act of 1996 (FFMIA). This is due to untimely
                   preparation of financial statements, and problems we noted with its
                   foreign loan financial management operations and systems. In
                   addition, CCC is in nonconformance with Section 4 of the Federal
                   Manager’s Financial Integrity Act of 1982 (FMFIA).

               •   CCC reported to us in its management representation letter two
                   instances of noncompliance with laws and regulations regarding
                   potential Anti-Deficiency Act violations. CCC also had not made
                   sufficient determinations whether violations of the Anti-Deficiency Act
                   have occurred on a matter we reported in our prior audit report.

                                     We recommended that CCC obtain outside
 KEY RECOMMENDATIONS                 resources to improve its financial accounting
                                     and reporting functions, improve the timeliness
                                     and accuracy of its financial information, and
        strengthen supervisory management oversight over financial account
        reconciliations, accounting entries and adjustments.

                                CCC recognizes the need to address its
     AGENCY POSITION            financial accounting and reporting functions to
                                improve the quality and timeliness of CCC’s
                                financial statements and its impact on the
        Department as a whole. CCC will continue actions to improve its financial
        systems and procedures so that they can routinely produce complete

USDA/OIG-A/06401-14-FM                                                            Page iii
          reliable, timely and consistent financial statements without numerous
          material year end adjustments.




USDA/OIG-A/06401-14-FM                                                  Page iv
                                        TABLE OF CONTENTS


EXECUTIVE SUMMARY................................................................................................ i
   PURPOSE .................................................................................................................. i
   RESULTS IN BRIEF................................................................................................... i
   KEY RECOMMENDATIONS .................................................................................... iii
   AGENCY POSITION................................................................................................. iii
TABLE OF CONTENTS ................................................................................................ v
REPORT OF THE OFFICE OF INSPECTOR GENERAL ............................................. 1
REPORT OF THE OFFICE OF INSPECTOR GENERAL ON INTERNAL CONTROL
STRUCTURE ................................................................................................................ 3
FINDINGS AND RECOMMENDATIONS....................................................................... 7
   I. FOREIGN CREDIT REFORM PROBLEMS CONTINUE TO HAVE A MATERIAL
   IMPACT ON COMMODITY CREDIT CORPORATION FINANCIAL STATEMENTS
   AND BUDGET SUBMISSIONS ................................................................................. 7
   FINDING NO. 1.......................................................................................................... 9
   FINDING NO. 2........................................................................................................ 11
   RECOMMENDATION NO. 1.................................................................................... 15
   RECOMMENDATION NO. 2.................................................................................... 15
   RECOMMENDATION NO. 3.................................................................................... 15
   RECOMMENDATION NO. 4.................................................................................... 15
   RECOMMENDATION NO. 5.................................................................................... 15
   RECOMMENDATION NO. 6.................................................................................... 15
   RECOMMENDATION NO. 7.................................................................................... 16
   RECOMMENDATION NO. 8.................................................................................... 16
   RECOMMENDATION NO. 9.................................................................................... 16
   RECOMMENDATION NO. 10.................................................................................. 16
   II. DOCUMENTATION OF CCC INTERNAL CONTROL NEEDED FOR NEW CORE
   ACCOUNTING SYSTEM ......................................................................................... 17
   FINDING NO. 3........................................................................................................ 17
   RECOMMENDATION NO. 11.................................................................................. 18


USDA/OIG-A/06401-14-FM                                                                                                Page v
   III. IMPROVEMENTS NEEDED IN SECURITY AND CONTROL OVER FSA/CCC
   INFORMATION TECHNOLOGY (IT) RESOURCES ............................................... 19
   FINDING NO. 4........................................................................................................ 19
   RECOMMENDATION NO. 12.................................................................................. 20
   IV. REIMBURSEMENT CLAIMS NOT MADE FOR EXCESS OCEAN FREIGHT
   PAYMENTS ............................................................................................................. 21
   FINDING NO. 5........................................................................................................ 21
REPORT OF THE OFFICE OF INSPECTOR GENERAL ON COMPLIANCE WITH
LAWS AND REGULATIONS ...................................................................................... 23
FINDINGS AND RECOMMENDATIONS..................................................................... 25
   V. NONCOMPLIANCE WITH FEDERAL FINANCIAL MANAGEMENT
   IMPROVEMENT ACT AND FEDERAL MANAGER’S FINANCIAL INTEGRITY ACT
   ................................................................................................................................. 25
   FINDING NO. 6........................................................................................................ 25
   RECOMMENDATION NO. 13.................................................................................. 27
   VI. POTENTIAL NONCOMPLIANCE WITH ANTI-DEFICIENCY ACT
   REQUIREMENTS .................................................................................................... 28
   FINDING NO. 7........................................................................................................ 28
   RECOMMENDATION NO. 14.................................................................................. 30
   RECOMMENDATION NO. 15.................................................................................. 30
   VII. ANNUAL REVIEW OF USER FEES NOT PERFORMED FOR ALL PROGRAMS
   ................................................................................................................................. 31
   FINDING NO. 8........................................................................................................ 31
ABBREVIATIONS ....................................................................................................... 33




USDA/OIG-A/06401-14-FM                                                                                                      Page vi
                            TABLE OF CONTENTS


COMMODITY CREDIT CORPORATION FINANCIAL STATEMENTS – FISCAL YEAR
2000 (Prepared by CCC)


     MANAGEMENT’S DISCUSSION AND ANALYSIS OF
     CCC’S FINANCIAL STATEMENTS ................................................................... 1

     BALANCE SHEET....................................................................... (Unnumbered)

     STATEMENT OF CHANGES IN NET POSITION ........................(Unnumbered)

     CONSOLIDATING STATEMENT OF NET COSTS......................(Unnumbered)

     COMBINING STATEMENT OF BUDGETARY RESOURCES .....(Unnumbered)

     COMBINING STATEMENT OF FINANCING ...............................(Unnumbered)

     SUPPORTING SCHEDULES .......................................................(Unnumbered)

     REQUIRED SUPPLEMENTARY INFORMATION ........................(Unnumbered)

     REQUIRED SUPPLEMENTARY
     STEWARDSHIP INFORMATION .................................................(Unnumbered)

     NOTES TO FINANCIAL STATEMENTS ............................................................ 1




USDA/OIG-A/06401-14-FM                                                                        Page vii
                        UNITED STATES DEPARTMENT OF AGRICULTURE

                                              OFFICE OF INSPECTOR GENERAL

                                                     Washington D.C. 20250




          REPORT OF THE OFFICE OF INSPECTOR GENERAL


TO:       Board of Directors
          Commodity Credit Corporation

We attempted to audit the accompanying Balance Sheet of the Commodity Credit
Corporation (CCC) as of September 30, 2000, and the related Consolidating Statements
of Net Costs and Changes in Net Position, and the Combining Statements of Budgetary
Resources and Financing for the FY then ended. These financial statements are the
responsibility of CCC's management.

We were unable to perform the audit because CCC was unable to provide financial
statements in time for us to conduct the audit and still meet the Chief Financial Officer’s
Act mandated audit reporting time frames. CCC officials provided financial statements on
February 1, 2001. However, the statements were incomplete and had pervasive errors.
In our report, dated February 15, 2001, we disclaimed an opinion on CCC’s Balance
Sheet as of September 30, 2000, and the related Statements of Net Cost, Changes in
Net Position, and Budgetary Resources and Financing provided to us on February 1,
     1
2001 .

Based on our audit coverage, we concluded that the Corporation was not able to provide
sufficient and competent evidential matter, even after taking substantial time after the
deadline provided by the Department, and making numerous material adjustments, to
support material line items on its financial statements provided for audit on April 25, 2001.
 We could not substantiate the Corporation’s financial statements and footnote
disclosures related to direct credits, credit guarantees, and subsidy costs and their impact
on “Fund Balance with the U.S. Treasury (Treasury);” “Accounts Receivable;” "Credit
Reform Receivables, Net;" “Other Foreign Receivables, Net;” “Resources Payable to
Treasury;” “Excess Subsidy Payable;” “Estimated Loss on Credit Guarantees;”
“Unexpended Appropriations;” and “Cumulative Results of Operations” on the balance
sheet, at September 30, 2000, as well as the related financial statement line items
relative to direct credits, credit guarantees, and subsidy costs in the Foreign Programs
section of the Consolidating Statement of Net Costs.




1
   CCC initially provided us with financial statements on February 1, 2001. As noted, we issued a disclaimer of opinion on these
statements on February 15, 2001. CCC provided us with another set of financial statements on April 25, 2001. This report
presents our disclaimer of opinion on these financial statements.

USDA/OIG-A/06401-14-FM                                                                                                  Page 1
Furthermore, we were unable to obtain sufficient and competent evidential matter
regarding CCC’s foreign credit programs to support the Corporation’s Statement of
Changes in Net Position and Combining Statements of Budgetary Resources and
Financing. These statements are impacted by the lack of support for the direct credits,
credit guarantees and related subsidy costs described above. Accordingly, we determined
that it was not practicable to perform further alternate procedures to satisfy ourselves as
to: (1) the value of any of the financial statement line items on the Statement of Changes
in Net Position; (2) the value of any of the financial statement line items on the Combining
Statements of Budgetary Resources and Financing; and (3) the value of the assets,
liabilities, equity, and costs as they relate to direct credits, credit guarantees and subsidy
costs.

Because of the effects of the matters discussed in the preceding paragraphs, we were not
able to satisfy ourselves as to value of CCC’s assets, liabilities, and net position of the
Corporation as of September 30, 2000; as well as its net costs, changes in net position,
budgetary resources, and reconciliation of net costs to budgetary obligations for the fiscal
year then ended. Therefore, we are unable to express, and we do not express, an
opinion on the accompanying financial statements.

Our audit was conducted for the purpose of forming an opinion on CCC's financial
statements taken as a whole. The information in the Management’s Discussion and
Analysis and Required Supplementary Information sections represents supplementary
information required by Office of Management and Budget (OMB) Bulletin No. 97-01,
"Form and Content of Agency Financial Statements." We have considered whether this
information is materially consistent with the principal financial statements. Such
information has not been subjected to auditing procedures applied in the audit of the
financial statements, and accordingly, we express no opinion on it.

We have also issued a report on CCC's internal control structure, which cites five material
weaknesses, and a report on CCC's compliance with laws and regulations that includes
three instances of noncompliance.

This report is intended solely for the information and use of the management of CCC,
OMB and Congress and is not intended to be and should not be used by anyone other
than these specified parties.




ROGER C. VIADERO
Inspector General


May 1, 2001

USDA/OIG-A/06401-14-FM                                                                Page 2
                 UNITED STATES DEPARTMENT OF AGRICULTURE

                                OFFICE OF INSPECTOR GENERAL

                                    Washington D.C. 20250




      REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
              INTERNAL CONTROL STRUCTURE


TO:    Board of Directors
       Commodity Credit Corporation

We attempted to audit the financial statements of CCC as of and for the FY ended
September 30, 2000, and have issued our report thereon dated May 1, 2001. In
planning and performing our audit of the financial statements of CCC for the FY ended
September 30, 2000, we considered its internal control structure over financial reporting
by obtaining an understanding of the Corporation's internal controls, determined
whether these internal controls had been placed in operation, assessed control risk,
and performed tests of controls in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial statements and not to provide
assurance on the internal control over financial reporting. We limited our internal
control testing to those controls necessary to achieve the objectives described in OMB
Bulletin 01-02. We did not test all internal controls relevant to operating objectives, as
broadly defined by the FMFIA, such as those controls relevant to ensuring efficient
operations. The objective of our audit was not to provide assurance on internal control.
Consequently, we do not provide an opinion on internal control.

In addition, we considered CCC's internal controls over Required Supplementary
Stewardship Information by obtaining an understanding of the internal controls,
determined whether the internal controls had been placed in operation, assessed control
risk and performed tests of controls as required by OMB Bulletin 01-02, "Audit
Requirements for Federal Financial Statements," and not to provide assurance on these
internal controls. Accordingly, we do not provide assurance on such controls.

The information presented in the Management Discussion and Analysis is supplemental
information required by OMB Bulletin 97-01, entitled “Form and Content of Agency
Financial Statements.” OMB Bulletin 01-02 requires that we obtain an understanding of
the internal controls designed to ensure data supporting the performance measures are
properly recorded and accounted for to permit the preparation of reliable and complete
information. Our audit work in the area of performance measures involved confirming the
financial information included in the Management Discussion and Analysis section with
information contained in the principal financial statements and ensuring that there was
data to support the performance measures.



USDA/OIG-A/06401-14-FM                                                            Page 3
   MANAGEMENT’S RESPONSIBILITY FOR INTERNAL CONTROL STRUCTURE


The management of CCC is responsible for establishing and maintaining an internal
control structure. In fulfilling this responsibility, estimates and judgments by management
are required to assess the expected benefits and related costs of internal control structure
policies and procedures. The objectives of an internal control structure are to provide
management with reasonable, but not absolute, assurance that assets are safeguarded
against loss from unauthorized use or disposition, and that transactions are executed in
accordance with management's authorization and recorded properly to permit the
preparation of financial statements in accordance with generally accepted accounting
principles. Because of inherent limitations in any internal control structure, errors or
irregularities may, nevertheless, occur and not be detected. Also, projection of any
evaluation of the internal control structure to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

For its FY 2000 FMFIA report, the Farm Service Agency (FSA)/CCC reported to the
Office of the Chief Financial Officer (OCFO) on November 17, 2000, that one of the three
Section 2, Management Accountability and Control, weaknesses had been corrected and
its one remaining Section 4, Financial Management System nonconformances had not
yet been corrected. The reported Section 2 weakness pertained to the foreign credit
reform accounting and subsidy reestimate process; and the Section 4 nonconformance
related to CCC’s foreign credit, and credit reform financial management systems not
being fully automated and integrated into CCC’s CORE Accounting System.

Additionally, CCC submitted its 2001-2002 Federal Financial Management Improvement
Act (FFMIA) remediation plan, which discussed the status of CCC’s corrective actions for
the nonconformances in CCC’s financial management systems. The plan showed that
corrective actions were to be completed by December 31, 2001.




USDA/OIG-A/06401-14-FM                                                              Page 4
        OIG’S EVALUATION OF CCC’S INTERNAL CONTROL STRUCTURE


For the purpose of this report, we have classified CCC's significant internal control
structure policies and procedures into the following categories:

•   Cash management - consists of policies and procedures associated with disbursing
    and collecting cash, reconciling cash balances, and managing debt.

•   Commodity loans - consists of policies and procedures associated with authorizing
    and disbursing loans, accruing interest on loans, collecting loan repayments, and
    recognizing loan write-offs.

•   Export trade - consists of policies and procedures associated with authorizing and
    disbursing credits and guarantee payments, collecting loan repayments, and
    disbursing export subsidies.

•   Financial reporting - consists of policies and procedures associated with
    miscellaneous activity, processing accounting entries, and preparing CCC's annual
    financial statements and budgetary reports.

•   Inventories - consists of policies and procedures associated with acquiring
    commodities through purchase and loan forfeiture, storing and managing commodity
    inventories, and disposing of commodities through sales and donations.

•   Producer payments - consists of policies and procedures associated with determining
    producer eligibility, disbursing funds to producers, and accruing expenses.

For each of the internal control structure categories listed above, we obtained an
understanding of the design of significant control policies and procedures and whether
they have been placed in operation. We assessed control risk and performed tests of
FSA/CCC's internal control structure.

In making our risk assessment, we considered FSA/CCC's FMFIA reports, as well as our
prior and current audit efforts and other independent auditor reports on financial matters,
and internal accounting control policies and procedures. Because of the internal
accounting control weaknesses related to the problems discussed in this audit, we agree
with management's assertion that it has a material weakness relating to its foreign loan
accounting system. We do not believe that CCC complies with FMFIA Section 4 as noted
in its FY 2000 FMFIA report to the Secretary.

Our consideration of the internal controls over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be reportable

USDA/OIG-A/06401-14-FM                                                                Page 5
conditions. We noted certain matters involving the internal control structure and its
operation that we consider to be reportable conditions. Under standards issued by the
American Institute of Certified Public Accountants (AICPA), reportable conditions involve
matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control structure that, in our judgment, could adversely affect
CCC's ability to have reasonable assurance that the following objectives are met:

      (1)    Transactions are properly recorded and accounted for to permit the
             preparation of reliable financial statements and to maintain accountability
             over assets;

      (2)    Funds, property, and other assets are safeguarded against loss from
             unauthorized use or disposition; and

      (3)    Transactions, including those related to obligations and costs, are executed
             in compliance with (a) laws and regulations that could have a direct and
             material effect on the Principal Statements, and (b) any other laws and
             regulations that OMB, CCC, or we have identified as being significant for
             which compliance can be objectively measured and evaluated.

Matters involving internal control and their operation that we consider to be reportable
conditions are presented in the "Findings and Recommendations" section of this report.




USDA/OIG-A/06401-14-FM                                                           Page 6
                  FINDINGS AND RECOMMENDATIONS


   I. FOREIGN CREDIT REFORM PROBLEMS CONTINUE TO HAVE A
   MATERIAL IMPACT ON COMMODITY CREDIT CORPORATION
   FINANCIAL STATEMENTS AND BUDGET SUBMISSIONS


For the last six consecutive years, we have reported significant problems in the
procedures used by CCC for reporting on its credit reform accounting, and other financial
information. CCC has not implemented effective accounting and financial management
systems to produce complete, reliable, timely and consistent financial statements.
Extensive improvements are needed in the availability and reliability of critical financial
data for CCC foreign credit operations. These problems continue to plague CCC
because it had not taken sufficient action to implement the recommendations contained in
our prior audit reports. As a result, CCC was unable to prepare financial statements with
sufficient, competent, supporting documentation within the timeframes established by the
Department the past three fiscal years. For FY 2000, CCC was five months late
submitting its final set of financial statements. Consequently, CCC and departmental
officials do not have a reliable source of information for decision making for budget and
program purposes. CCC has credit program receivables and other foreign receivables
totaling $7.8 billion (net) and related foreign program costs of over $2.2 billion.

In our audit of CCC’s FY 1998 financial statements (Audit No. 06401-9-FM, dated
February 22, 1999), we recommended CCC strengthen its financial management
operations by reorganizing its accounting, budgeting and reporting functions; and
making other changes to improve the timeliness and accuracy of its financial
statements, accounting and budgetary reports. In response to our recommendations,
CCC informed us that necessary accounting and financial personnel would receive
extensive training in the use of OMB cash flow models. CCC believed that some new
staff members, extensive training, and involvement of additional Financial Management
Division (FMD) accounting resources would result in significant strengthening of
financial management operations. However, we found during our FY 1999 audit (Audit
No. 60401-11-FM, dated July 13, 2000) that CCC’s planned actions were not effective,
and some actions were not taken.

In our FY 1999 report, we again recommended that CCC reorganize its financial
accounting and reporting functions, improve the timelines and accuracy of its financial
information and strengthen its management over CCC financial management
operations. In this audit, we also recommended that Chief Financial Officer’s (CFO)
office become involved in resolving this serious problem. CCC officials disagreed with
our recommendations that a study of its financial management was needed, and stated

USDA/OIG-A/06401-14-FM                                                             Page 7
it had adequately addressed our audit findings and recommendations by
“strengthening” CCC financial and accounting operations. Also, CCC officials advised
that it had addressed organization changes needed by instituting a new policy,
whereby, the CCC Chief Accountant would be more involved in foreign accounting
operations. In addition, a contractor would perform an independent validation and
verification of CCC’s credit reform accounting, and reconciliation procedures were
established to timely and properly reconcile CCC records, especially CCC’s Fund
Balance with Treasury, and credit reform accounts on a monthly basis.

However, our current audit work disclosed that those actions taken by CCC officials
were not effective to resolve the longstanding problems we have reported. We
continue to find a lack of quality assurance over CCC foreign loan accounting
operations. As a result of the continued problems noted by OIG with CCC’s foreign
loan accounting operations, CCC officials on May 4, 2001, revised their opinion, and
now state that they will contract with a commercial firm to evaluate CCC’s foreign credit
reform financial operations. CCC will also now coordinate this review with the
Department’s CFO.




USDA/OIG-A/06401-14-FM                                                           Page 8
                                        As we reported in our prior report, there are
          FINDING NO. 1                 substantially different credit reform accounting
                                        and reporting standards for the budget and
    Non – Standard Credit Reform        financial statements for CCC. In our opinion,
     Accounting For CCC Budget          the difference in budgetary reestimates
     Causes Misstatements and           adversely impacts CCC’s budget submissions
        Increased Workload              because the budget does not reflect the
                                        current financial status of the individual
                                        countries. For FY 2000, CCC credit reform
                   subsidy costs for direct credits and guarantees disbursed during
                   the year were estimated at over $653 million.

                               Effective for FY 1992, the Federal Credit Reform Act (Act) of 1990
                               required the President’s Budget to reflect the “costs” of direct loan
                               and guarantee programs. “Costs” are defined by this Act to mean
                               the estimated long-term cost to the Government of direct loans or
                               loan guarantees, calculated on a net present value basis, excluding
                               administrative costs and incidental effects of receipts and outlays.
                               The primary intent of the Act is to ensure that the subsidy costs of
                               federal loan programs are taken into account in making budgetary
                               decisions.

                               In a memorandum, dated February 18, 1997, OMB advised
                               agencies with international foreign loans and guarantees that when
                               reestimating default subsidy, a country’s expected default cash flow
                               should remain the same as estimated at the original time the
                                                             2
                               loan/guarantee was obligated . However, the Statement of Federal
                               Financial Accounting Standards (SFFAS) No. 2, “Accounting for
                               Direct Loans and Loan Guarantee” requires that the subsidy (loan
                               loss reserve) be estimated as of the date of the financial
                               statements using the current country default risk rating. To
                               estimate the potential impact of using different risk ratings, we
                               reestimated the subsidy for the remaining years of a loan to a
                               country whose risk grade had dropped and noted that costs would
                               be understated in the budget by 37 percent or $11.3 million for this
                               one country for one loan. In addition to distorting the budget, this
                               procedure causes CCC personnel to prepare two different credit
                               reform reestimates which takes additional staff time.

                               We made recommendations to the Department in our prior audit of

2
   The Inter-Agency Country Risk Assessment System (ICRAS) was developed to provide a consistent method of measuring the
risk associated with loans and guarantees made to international borrowers. In this system, each borrower country on an individual
basis is assigned to 1 of 11 risk categories. Default probabilities (risk premia), measured over the life of the loan or guarantee, are
estimated for each risk category. These risk premia are then used to determine both expected repayment and subsidy levels.

USDA/OIG-A/06401-14-FM                                                                                                       Page 9
                the U.S. Department of Agriculture (USDA) Consolidated Financial
                Statements for FY 1998, Audit Report No. 50401-30-FM, dated
                February 22, 1999, to establish a working group to resolve all
                departmental credit reform problems.         During FY 1999, the
                Department’s CFO established a task force to assist in resolving the
                Department’s credit reform problems. As part of its efforts, this task
                force is working to obtain consistency in the processes followed to
                estimate loan subsidy costs between the budget and financial
                statements. However, to date, little progress had been made in this
                area. Because OIG continues to work with the Department and CCC
                to overcome this problem, we are making no further
                recommendations in this report.




USDA/OIG-A/06401-14-FM                                                       Page 10
                                      We found significant errors and omissions in
       FINDING NO. 2                  CCC’s accounting records relating to direct
                                      and guaranteed foreign credit programs.
  Improvement in Foreign Loan         These errors and omissions, involving billions
    Accounting Still Needed           of dollars, would have been detected had
                                      appropriate reconciliations been performed
                                      and supervisory oversight been more
             effective. These problems are further compounded because CCC’s
             foreign credit subsidiary systems and credit reform financing systems
             are not fully automated and integrated into CCC’s new CORE
             Accounting System. As a result of these material internal control
             weaknesses, financial management system limitations and other
             problems, we issued a disclaimer of opinion on CCC’s FY 2000
             financial statements.

              Details of the conditions noted include:

              •   CCC’s credit reform reestimates and other present value estimates
                  contained numerous errors.         For example, the cash flow
                  spreadsheets, discounting the cash flows for CCC’s pre-1992
                  loans, discounted the cash flows to a date different than the
                  financial statement reporting date. As a result, CCC’s estimate of
                  the net present value of cash flows was incorrect by $185 million
                  (absolute value). The cash flow spreadsheets also incorrectly
                  included some amounts multiple times. CCC performed additional
                  calculations and adjustments but was unable to materially correct
                  these problems in the April 25, 2001, financial statements provided
                  to us.

              •   CCC made errors when personnel recorded the results of the net
                  present value calculations. For example, CCC personnel did not
                  include accrued interest receivable in the calculation for recording
                  the net present value of the credit receivables in the general ledger.
                  As a result, CCC’s allowances for credit receivables were incorrect
                  by material amounts. In addition, CCC did not properly record
                  adjustments to the beginning balances of the net present value for
                  credit receivables as prior period adjustments. CCC performed
                  additional adjustments but was unable to materially correct these
                  errors in the April 25, 2001 financial statements provided to us.

              •   As noted in prior audits, CCC continued to post extensive and
                  material adjustments to its general ledger accounts after the
                  general ledger was closed for the FY. This occurred because
                  CCC’s CORE Accounting System is not yet fully automated and

USDA/OIG-A/06401-14-FM                                                         Page 11
                   integrated with its loan subsidiary systems and credit reform
                   financing systems. In addition, CCC personnel lack sufficient
                   training, credit reform accounting skills, and need more effective
                   supervisory oversight. We noted the following regarding CCC’s
                   adjustments in compiling their February 1 and April 25, 2001
                   versions of its FY 2000 financial statements.

                DATE               Total No. & Amount of     No. & Amount of Credit Reform
                                    Adjustments Made               Adjustments Made
        Through November 24,          33 Adjustments                21 Adjustments
           2000 (Original Due            $37 Billion                   $6 Billion
                  Date)
        Between November 25,         208 Adjustments                99 Adjustments
           2000 – February 1,          $371 Billion                   $313 Billion
           2001 (“Initial” Final
              Statements)
         Between February 2,         110 Adjustments                106 Adjustments
         2001 – April 25, 2001          $27 Billion                    $26 Billion
          (“Final” Statements)
                   Total             351 Adjustments                226 Adjustments
                                       $435 Billion                   $345 Billion



               We reviewed 174 of the 226 credit reform adjustments and determined
               that 80 contained errors. We also determined that 134 of the 174
               adjustments reviewed were made to correct previous general ledger
               accounting entries, or previous adjusting entries that had been made
               in error. We attributed these errors to lack of sufficient training, credit
               reform accounting skills, and supervisory oversight.

           •   At the conclusion of our FY 1999 audit, we reported that CCC’s
               general ledger, as adjusted, contained abnormal balances totaling
               $575 million (absolute value), as of September 30, 1999. During our
               FY 2000 audit, we again identified that CCC’s general ledger
               contained abnormal balances, now totaling $582 million (absolute
               value), as of September 30, 2000. CCC performed additional research
               on these accounts in response to our March 15, 2001, issue paper on
               this matter, but was unable to materially resolve the problems with
               these abnormal balances in the April 25, 2001, financial statements
               provided to us. These abnormal balances continue to occur because
               of incorrect posting models, and incorrect accounting adjustments
               made by CCC personnel.

           •   In our FY 1999 report on internal controls, we reported numerous
               problems with CCC’s reconciliations, and recommended that CCC
               establish a documented process to timely and properly reconcile CCC
               records. Additionally, we identified account reconciliations, either

USDA/OIG-A/06401-14-FM                                                           Page 12
              prepared or reviewed by supervisory accounting personnel, which
              were prepared in error. In response to our FY 1999 report, CCC
              advised that a formal reconciliation procedure would be developed.
              However, we again noted during our FY 2000 audit that CCC’s
              reconciliations were frequently not accurately and timely prepared.
              We again noted a need for improved supervisory oversight over this
              area. For example, we reviewed CCC’s reconciliation of its liability for
              loan guarantees, to the underlying accounting activity, and determined
              that this reconciliation clearly indicated an error of $48.6 million.
              However, this error was not detected in either the preparation, or
              review and approval of this reconciliation

          •   CCC used incorrect interest rates when calculating interest income
              and interest expense for financing accounts. As a result, CCC’s
              interest income was overstated by $3.3 million and interest expense
              was overstated by $16.5 million. CCC subsequently corrected these
              errors in the April 25, 2001, financial statements provided to us.

          •   CCC made errors in calculating, reconciling and recording its accrued
              interest receivable as of September 30, 1999 and 2000. We
              determined that CCC’s accrued interest receivable was incorrect by
              $48.6 million (absolute value) and interest income-foreign programs
              was incorrect by $78 million (absolute value). CCC subsequently
              corrected these errors in the April 25, 2001 financial statements
              provided to us.

          •   In our FY 1999 report on internal controls, we reported that 39 of 90
              CORE transaction posting models reviewed were not in compliance
              with U.S. Government Standard General Ledger (SGL) guidance. We
              determined that CCC continued to use incorrect posting models to
              record its FY 2000 activity. Near the end of FY 2000, CCC developed
              a set of posting models which were in compliance with SGL guidance.
               However, CCC did not adopt these posting models for the FY 2000
              year, because they were provided too late in the fiscal year to be
              implemented.

          •   We determined that CCC recorded several manual accounting entries
              incorrectly and it did not properly record some of its budgetary
              accounting entries. For example, CCC processed a manual entry to
              decrease Fund Balance With Treasury and increase credit program
              receivables by $1.1 million. However, this adjustment caused CCC’s
              loans receivable general ledger control account to become out-of-
              balance with its detail subsidiary files. We also noted that while the
              SGL requires that funds that are anticipated to be collected during the
              fiscal year are to be recorded in the budgetary accounts, we

USDA/OIG-A/06401-14-FM                                                       Page 13
              determined that CCC did not record anticipated collections totaling
              $102 million within the budgetary accounts for FY 2000. As a result,
              CCC filed incorrect interim Forms SF-133, Report on Budget
              Execution, with Treasury.

          •   CCC made errors when estimating its contingent liability for
              “unrecorded” guaranteed loans, as of September 30, 2000. CCC must
              estimate these guaranteed loans because of significant delays in
              receiving needed accounting information from lenders. We noted that
              CCC used incorrect risk categories when recording the subsidy
              expense for these loans. We estimated that CCC understated subsidy
              expense by $26.1 million because of this error. In addition, if CCC’s
              reestimation had correctly used the estimate amounts for “unrecorded”
              loans, an additional downward reestimate of $51 million would have
              been reported. CCC performed additional calculations and
              adjustments to materially correct these errors in the April 25, 2001
              financial statements provided to us.

          •   In order for CCC to improve its Credit Reform accounting operations
              for FY 2000, CCC was to identify the accounting errors within its
              proprietary and budgetary accounts and make appropriate
              adjustments to the beginning balances. We found that CCC had not
              identified and corrected all errors, and that some prior period errors
              were not corrected properly. For example, after CCC identified errors
              in its FY 2000 beginning balances, and made adjustments, the
              beginning balances continued to reflect accounts with abnormal
              balances totaling $416 million (absolute value). In addition, we
              reviewed certain equity accounts and budgetary closing accounts of
              CCC, and identified 72 accounting entries totaling $228.2 million
              (absolute value), that appear to be improperly recorded. Also CCC’s
              Statement of Budgetary Resources does not accurately reflect FY
              2000 budgetary activity because of adjustments CCC made to correct
              past budgetary accounting errors totaling $435.1 million (absolute
              value).

          CCC’s new accounting system is not yet fully automated and integrated
          with its loan subsidiary systems and credit reform financing systems. The
          CCC process to record foreign credit transactions, credit reform subsidy
          transactions, and credit reform financing transactions continues to rely
          entirely on the preparation of manual spreadsheets and journal voucher
          documents. As we have noted in prior audits, and again in this audit,
          significant problems exist with the preparation, review and posting of
          these accounting entries, and other financial management operations in
          CCC. The lack of properly prepared reconciliations, out of balance
          conditions, and abnormal account balances adversely affects

USDA/OIG-A/06401-14-FM                                                     Page 14
            departmental and CCC official’s ability to manage CCC’s costly and
            complex multi-billion dollar operations.

                                  Obtain outside resources in consultation with
  RECOMMENDATION NO. 1            the OCFO, to study CCC’s financial
                                  management       operations.           Develop
                                  appropriate organizational changes, system
       enhancements and internal control structures based upon this study.
       Develop a comprehensive plan to remedy these longstanding problems
       within 6 months. In the interim, obtain additional outside resources to
       strengthen CCC’s financial, budgeting, accounting, and financial reporting
       operations by obtaining personnel with strong financial management and
       credit reform accounting experience.

                                  Fully automate the credit reform subsidy
  RECOMMENDATION NO. 2            estimate and reestimate process, in
                                  consultation with the OCFO credit reform task
                                  force. Establish and adhere to a system of
       controls that will provide timely and accurate credit reform subsidy
       estimates and reestimates.

                                  Develop and implement procedures, which
  RECOMMENDATION NO. 3            provide routine monitoring of general ledger
                                  accounts for abnormal balances.        Ensure
                                  these procedures provide for accurate
       research of the cause(s), determination of financial statement impact and
       accomplishment of corrective actions.

                                  Adopt a consistent procedure for calculating
  RECOMMENDATION NO. 4            and accruing interest income on both
                                  performing and non-performing foreign
                                  credits, which follow CCC’s policies and
       generally accepted accounting principles.

                                     Develop and implement procedures, which
  RECOMMENDATION NO. 5               provide for the calculation of credit reform
                                     financing costs in accordance with Treasury
                                     and OMB guidelines.

                                     Develop and implement procedures for
  RECOMMENDATION NO. 6               reconciling CCC accrued interest receivable
                                     as reported to Treasury and on CCC’s audited
                                     financial statements.



USDA/OIG-A/06401-14-FM                                                   Page 15
                                     Perform a comprehensive review of all
  RECOMMENDATION NO. 7               accounting system posting models and revise
                                     those found to be incorrect.


                                     Provide periodic reports to the Department’s
  RECOMMENDATION NO. 8               CFO on the progress achieved in resolving the
                                     weaknesses and deficiencies cited in this
                                     report.

                                     Obtain additional credit reform and budgetary
  RECOMMENDATION NO. 9               accounting training for CCC supervisory
                                     accounting and other personnel responsible
                                     for recording and approving CCC credit reform
          accounting transactions.

                                     Revise the process to estimate the amount of
 RECOMMENDATION NO. 10               “unrecorded” guaranteed loans outstanding.




USDA/OIG-A/06401-14-FM                                                   Page 16
     II. DOCUMENTATION OF CCC INTERNAL CONTROL NEEDED FOR
     NEW CORE ACCOUNTING SYSTEM



                                            CCC has not documented the internal control
              FINDING NO. 3                 structure for its new CORE Accounting
                                            System. Given the size and complexity of
                                            FSA/CCC’s operations, a documented internal
                                            control structure would provide substantial
          assurances concerning the effectiveness and efficiency of operations, reliability
          of financial systems, and compliance with laws and regulations.
                                                                                                                                  3
          The Committee of Sponsoring Organizations of the Treadway Commission
          recommended sponsoring a project to provide practical, broadly accepted criteria
          for establishing internal control and evaluating its effectiveness. As a result of
          this study, in September 1992, the “Internal Control – Integrated Framework”
          was issued. The “framework” provides a comprehensive basis for developing
          and assessing internal controls in any organization. In November 1999, the
          General Accounting Office (GAO) updated its “Standards for Internal Control in
                                     4
          the Federal Government.” The GAO noted in this revision “rapid advances in
          information technology have highlighted the need for updated internal control
          guidance related to modern computer systems.”

          We have reported the absence of a documented internal control structure to
          CCC in prior financial statement audit reports. In our Audit Report No. 03600-16-
          FM, dated January 31, 1994, we recommended that CCC develop and document
          high and intermediate control objectives and techniques in an integrated, top
          down, risk oriented framework. Our next five financial statement audit reports
          also reported this problem. In response to our FY 1998 financial statement audit
          report, CCC reported to us that it had completed the documentation of its control
          objectives and techniques. However, we found that with the implementation of
          its new CORE Accounting System, these controls need review and updating.

          CCC agreed with us that control objectives and techniques needed to be
          established and documented for the new CCC CORE Accounting System.

3
  The National Commission on Fraudulent Financial Reporting – A joint sponsorship of the AICPA, American Accounting
Association, Financial Executives Institute, Institute of Internal Auditors, and the Institute of Management Accountants.
4
  The FMFIA requires the GAO to issue standards for internal controls in Government. OMB Circular A-123 provides specific
requirements for assessing and reporting on controls. Recently, other laws have renewed focus on internal controls, such as the
Government Performance and Results Act of 1993, the CFO Act of 1990 and the FFMIA of 1996.

USDA/OIG-A/06401-14-FM                                                                                               Page 17
                              Perform necessary risk assessments and
 RECOMMENDATION NO. 11        document high and intermediate control
                              objectives and techniques in an integrated,
                              top down, risk-oriented framework for the
      CCC CORE Accounting System.




USDA/OIG-A/06401-14-FM                                           Page 18
       III. IMPROVEMENTS NEEDED IN SECURITY AND CONTROL OVER
       FSA/CCC INFORMATION TECHNOLOGY (IT) RESOURCES


                                              Security over FSA/CCC IT resources needs
                FINDING NO. 4                 strengthening. We found that CCC’s new
                                              CORE Accounting System does not meet
                                              OMB        and       Departmental    security
                                              requirements, and that physical and logical
                  security controls were weak. As a result, FSA/CCC could be susceptible to
                  lengthy delays in the restoration of disrupted computer services, and to
                  unauthorized access and manipulation of its critical data files.

CCC CORE Accounting System

CCC was not able to provide to us a system security certification, an application
security plan, or evidence that the CORE Accounting System had been adequately
tested as part of its disaster recovery and contingency planning efforts. As a result,
CCC cannot provide reasonable assurance that a minimum set of internal controls, as
required by OMB Circular A-130 and Departmental Manuals has been implemented for
the CCC CORE Accounting System. This system processes approximately 20 million
transactions annually.

OMB Circular A-130, Management of Federal Information Resources, dated February
8, 1996, Appendix III, Security of Federal Automated Information Resources, requires
agencies to prepare an application security plan for each major application.
Departmental Manual (DM) 3140-1, Management ADP Security Manual, dated July 19,
1984, requires agencies to certify the adequacy of security safeguards of each sensitive
operational computer application system and to re-certify the systems at least every
three years.

FSA/CCC officials agreed that problems exist in this area and plan to take corrective
actions to resolve these problems.

IT Security Problems
                                                                     5
Our audit of security over USDA IT resources, included a review of the security of
FSA/CCC IT resources at six locations. Weaknesses identified during our review
included:


5
    Audit Report 50099-27-FM, “Security over USDA Information Technology Resources Needs Improvement”, dated March 2001.


USDA/OIG-A/06401-14-FM                                                                                         Page 19
       •    FSA systems contained numerous vulnerabilities that, if left uncorrected, could
            allow unauthorized users access to critical and sensitive FSA/CCC programs
            and financial data. We found 40 high-risk vulnerabilities, 212 medium-risk
                                                             6
            vulnerabilities, and 964 low-risk vulnerabilities in the systems reviewed. These
            vulnerabilities place FSA/CCC at risk to unauthorized access to its system.

       •    Logical and physical access controls needed improvement. For example, we
            found that removal of access to systems for separated employees was
            inadequate, and password controls were inadequate for some systems.

Since these weaknesses and recommended corrective actions are being reported
separately to the FSA/CCC in another audit report, we are making no further
recommendations on IT security matters noted in this subsection.




                                                                Prepare security assessments and related
    RECOMMENDATION NO. 12                                       documents for the CCC CORE Accounting
                                                                System, as required by OMB Circular A-130
                                                                and Departmental security requirements.




6
   High-risk vulnerabilities are those which provide access to the computer, and possibly the network of computers. Medium-risk
vulnerabilities are those that provide access to sensitive network data that may lead to the exploitation of higher risk vulnerabilities.
 Low-risk vulnerabilities are those that provide access to network data that might be sensitive, but is less likely to lead to a higher
risk exploit.



USDA/OIG-A/06401-14-FM                                                                                                      Page 20
    IV. REIMBURSEMENT CLAIMS NOT MADE FOR EXCESS OCEAN
    FREIGHT PAYMENTS



                                            A recent audit conducted by the OIG, U.S.
              FINDING NO. 5                 Agency      for   International   Development
                                                     7
                                            (USAID) , found that USDA could be entitled to
                                            an additional $289 million in unclaimed cargo
                                            preference reimbursements for costs incurred
                                                                            8
                 under the P.L. 480 food assistance programs since 1992 . According to
                 the OIG report, this condition occurred, in part because there was
                 confusion as to which CCC office was responsible for preparing and
                 submitting the ocean freight reimbursement invoices. The audit also found
                 CCC had not reconciled differences totaling $187 million between its
                 requested reimbursements and the amounts approved. As a result, CCC’s
                 accounts receivable could be materially understated.

                     CCC officials have initiated actions to correct the above reported problem.
                     Because the detailed results of the audit and recommended corrective
                     actions were reported to CCC management in another audit report, we are
                     making no further recommendations herein.

Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements, in amounts that would be material to the financial statements being
audited, may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in internal
controls, misstatements, losses, or noncompliance may nevertheless occur and not be
detected. We believe the reportable conditions described in Finding Nos.1 through 5 are
material weaknesses.




7
  Audit report No. 9-000-01-003-P, Audit of US AID’S Cargo Preference Reimbursements Under Section 901d of the Merchant
Marine Act of 1936, dated March 30, 2001.
8
  Section 901d of the Merchant Marine Act of 1936, as amended, authorized USDA to claim reimbursement for excess ocean freight
costs associated with the transport of commodities under food assistance programs administered by USDA and USAID. A
Memorandum of Understanding between the Department of Transportation, USDA Commodity Credit Corporation, and USAID
describes the procedures regarding the calculation, request, and payment of cargo preference reimbursements.

USDA/OIG-A/06401-14-FM                                                                                               Page 21
This report is intended solely for the information and use of the management of CCC,
OMB and Congress and is not intended to be and should not be used by anyone other
than these specified parties.




ROGER C. VIADERO
Inspector General


May 1, 2001




USDA/OIG-A/06401-14-FM                                                     Page 22
      REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
         COMPLIANCE WITH LAWS AND REGULATIONS

TO:    Board of Directors
       Commodity Credit Corporation

We attempted to audit the accompanying financial statements of CCC as of and for the
FY ended September 30, 2000, and have issued our report thereon dated May 1, 2001.

The management of CCC is responsible for compliance with laws and regulations
applicable to it. As part of obtaining reasonable assurance about whether CCC’s principal
financial statements are free of material misstatements, we performed tests of CCC's
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin 01-02, or
designated significant by CCC. We limited our tests of compliance and did not test
compliance with all laws and regulations applicable to CCC. We tested compliance with:

       •   Agriculture, Rural Development, Food and Drug Administration and Related
           Agencies Appropriations Act of 1997;
       •   Agricultural Act of 1938;
       •   Agricultural Act of 1949;
       •   Anti-Deficiency Acts of 1906 and 1950;
       •   Budget and Accounting Procedures Act of 1950;
       •   CCC Charter Act of 1948;
       •   Chief Financial Officers Act of 1990;
       •   Corporation Control Act of 1945;
       •   Debt Collection Improvement Act of 1996;
       •   Federal Agriculture Improvement and Reform Act of 1996;
       •   Federal Credit Reform Act of 1990;
       •   Federal Crop Insurance Reform and Department of Agriculture Reorganization
                  Act of 1994;
       •   Federal Manager’s Financial Integrity Act of 1982 (FMFIA);
       •   Federal Financial Management Improvement Act of 1996 (FFMIA);
       •   Food, Agriculture, Conservation and Trade Act of 1990;
       •   Food Security Act of 1985;
       •   Food Security Improvements Act of 1986;
       •   Government Performance Results Act of 1993; and
       •   Government Management Reform Act of 1994.




USDA/OIG-A/06401-14-FM                                                          Page 23
As part of the audit, we reviewed management's process for evaluating and reporting on
internal control and accounting systems as required by the FMFIA and compared the
agency's most recent FMFIA reports with the evaluation we conducted of the CCC’s
internal control structure. We also reviewed and tested the CCC’s policies, procedures,
and systems for documenting and supporting financial, statistical, and other information
presented in the Management Discussion and Analysis section and Required
Supplemental Information sections. However, providing an opinion on compliance with
certain provisions of laws and regulations was not an objective of our audit. Accordingly,
we do not express such an opinion.

Under FFMIA, we are required to report whether CCC's financial management systems
substantially comply with: (1) the Federal financial management systems requirements,
(2) Federal accounting standards, and (3) the U.S. Government Standard General Ledger
(SGL) at the transaction level. The results of our tests disclosed instances, described in
our "Findings and Recommendations" section, where the CCC’s financial management
systems did not substantially comply with the above requirements.

Material instances of noncompliance are failures to follow requirements, or violations of
prohibitions, contained in law or regulation that cause us to conclude that the aggregation
of the misstatements resulting from those failures or violations is material to the financial
statements, or the sensitivity of the matter would cause it to be perceived as significant by
others. Material instances of noncompliance noted during our audit are presented in the
"Findings and Recommendations" section of this report.




USDA/OIG-A/06401-14-FM                                                              Page 24
               FINDINGS AND RECOMMENDATIONS


  V. NONCOMPLIANCE WITH FEDERAL FINANCIAL MANAGEMENT
  IMPROVEMENT ACT AND FEDERAL MANAGER’S FINANCIAL
  INTEGRITY ACT

                                          CCC's financial management systems do not
        FINDING NO. 6                     substantially comply with the requirements of
                                          the FFMIA or the FMFIA.          This lack of
                                          compliance is due to weaknesses in credit
                                          reform accounting, and the inability to prepare
           financial statements that meet accounting standards in a timely manner. As
           a result, Department and agency officials do not have the critical financial
           management information to manage CCC’s credit program receivables and
           other foreign receivables of over $7.8 billion (net), and production costs
           related to the foreign credit programs of over $2.2 billion.

           The FFMIA provides that an agency of the Federal Government will be
           considered to be in substantial compliance with financial management
           system requirements if among other issues:

           •   Agency financial management systems meet the OMB Circular A-127
               requirements.

           •   The agency can prepare audited financial statements in accordance
               with applicable accounting standards.

           •   The agency can comply with the SGL.

           According to the FFMIA, substantial noncompliance with the requirements
           in any one or more of the three areas included in FFMIA would result in
           substantial noncompliance with the Act.

           Beginning with our FY 1993 audit report, (Audit Report No. 03600-16-FM,
           dated March 1, 1994) and in each subsequent FY, OIG has reported on
           CCC's problems with its financial management systems. Although progress
           was achieved with the implementation of the new CORE Accounting
           System for CCC’s domestic program operations, CCC’s foreign financial
           systems still do not meet FFMIA requirements.           CCC's financial
           management systems also do not follow requirements published in Joint

USDA/OIG-A/06401-14-FM                                                          Page 25
          Financial Management Improvement Program’s (JFMIP) Federal Financial
          Management System Requirements series, which prescribe the functions
          that must be performed by systems to capture information for financial
          statement preparation.

          To support the financial reporting process, an agency's financial system
          must provide complete, reliable, consistent, timely and useful financial
          management information on operations to enable central management
          agencies, individual operating agencies, divisions, bureaus and other
          subunits to carry out their fiduciary responsibilities; deter fraud, waste and
          abuse of resources; and facilitate efficient and effective delivery of
          programs by relating financial consequences to program performance.

          The problems we have noted with CCC financial systems follow:

          •   CCC uses a personal computer (PC) software program to prepare its
              financial statements. This software facilitated the posting of adjusting,
              reclassifying, and eliminating entries to the general ledger after the
              general ledger was closed for the fiscal year. For FY 2000, we noted
              that this system was not interfaced with the new CORE Accounting
              System and did not utilize the SGL account structure. CCC manually
              entered general ledger account balances, in SGL format for their
              domestic operations to the PC system using non-SGL accounts. (In
              effect, CCC cross walked a SGL compliant system to a non-SGL
              compliant system.)

          •   There was no automated interface between the CCC CORE Accounting
              System and the financial systems used by the peanut association and
              tobacco servicing agent banks to account for and report on their
              commodity loan operations for CCC. These programs are valued at over
              $1.5 billion. In order to record peanut and tobacco loan activities, CCC
              manually inputs monthly summary entries into its new accounting
              system. In addition, peanut and tobacco servicing agent banks still
              account for and report on their commodity loan operations using the
              accounting structure for CCC’s former Financial Management System
              that was replaced.

          •   As noted in our opinion, CCC was again unable to provide sufficient
              and competent evidential matter to substantiate the Corporation’s
              financial statements related to direct credits, credit guarantees, and
              subsidy costs within the timeframes provided by the Department, and
              we have again identified many significant problems with the CCC’s
              financial management operations.



USDA/OIG-A/06401-14-FM                                                         Page 26
          •   CCC’s FFMIA Remediation Plan, dated December 6, 2000, identified
              two areas of planned remedial actions, along with planned completion
              dates, to resolve its financial management problems. One of the
              areas was to prepare financial statements in accordance with
              applicable accounting standards and meet established timeframes.
              The plan also showed that CCC, by December 2001, was to complete
              its implementation of a new General Sales Manager (GSM) system
              that interfaced directly to the CORE Accounting System. These
              actions were not achieved or are still pending.

          We will continue to monitor CCC's detailed actions to accomplish its
          remediation plan. As required by the law, we plan to include our
          assessment of the progress achieved in our future Semiannual Report to
          Congress as required by the FFMIA.


                                     Report in FSA/CCC’s FMFIA report that direct
 RECOMMENDATION NO. 13               and guaranteed foreign credit program
                                     accounting and financial management systems
                                     problems contain material weaknesses.




USDA/OIG-A/06401-14-FM                                                   Page 27
  VI. POTENTIAL NONCOMPLIANCE WITH ANTI-DEFICIENCY ACT
  REQUIREMENTS


                                        In its management representation letter to
        FINDING NO. 7                   OIG, CCC officials reported two instances of
                                        noncompliance with laws and regulations.
                                        These matters pertained to the reimbursable
                                        amounts with other government agencies and
           its 1999 Livestock Indemnity Program. In addition, CCC has not taken
           sufficient actions to address a matter we reported in our prior audit report,
           that its budgetary accounts relating to foreign loan credit programs
           reflected a negative balance indicating potential Anti-Deficiency Act
           violation of $5 million.

           The Anti-Deficiency Act states, in part, that an officer or employee of the
           United States Government may not (a) make or authorize an expenditure
           or obligations exceeding an amount available in an appropriation or fund
           for the expenditure or obligation; (b) involve government in a contract
           obligation for the payment of money before an appropriation is made
           unless authorized by law; (c) make or authorize an expenditure or
           obligation of funds required to be sequestered under section 252 of the
           Balanced Budget and Emergency Deficit Control Act of 1985; or (d)
           involve government in a contract or obligation for the payment of money
           required to be sequestered under section 252 of the Balanced Budget and
           Emergency Deficit Control of 1985. If an officer or employee of an
           executive agency violates section 1341 (a) or 1342 of this title, the head of
           the agency shall report immediately to the President and Congress all
           relevant facts and a statement of actions taken.

               •   Section 161 P.L. 104-127, the Federal Agriculture Improvement
                   and Reform Act of 1996, amended Section 11 of the CCC Charter
                   Act, Cooperation with Other Government Agencies, to limit the
                   amount of CCC funds for reimbursable agreements and transfers
                   and allotments of funds to other government agencies. Starting in
                   FY 1997, the total of CCC fund transfers under this section in a
                   fiscal year, including agreements for automated data processing or
                   information technology management activities are not to exceed
                   the total of such allotments and transfers in FY 1995.




USDA/OIG-A/06401-14-FM                                                         Page 28
                              The following chart depicts potential Anti-Deficiency Act violations:


                                                                                                                  Transfers in
                                   Limit        Apportionments           Obligations            Fees               excess of
                                                                                                                           9
                       Year      ($ millions)        ($ millions)          ($ millions)      Transferred             Limit
                                                                                               ($ millions)         ($ millions)
                      1997           46.2                       43.7               39.3                  11.7                 4.8
                      1998           46.2                       43.3               37.9                  10.0                 1.7
                                         10
                      1999           36.2                       35.8               34.7                  17.6                16.1
                                         10
                      2000           36.2                       36.2               36.2                  19.3                19.3
                                                                                                                             41.9



                              After consultation with the Office of the General Counsel (OGC),
                              CCC officials advised they had recently determined that two
                              reimbursements relating to loan service fees and measurement
                              services with the FSA were not considered in calculating the
                              amounts reimbursed in FY 1995. Since these two reimbursements
                              were only recently determined to be part of the Section 11
                              limitation, no amounts were included for them in any of the
                              apportionments for the cited fiscal years, including the FY 2000
                              Apportionment Schedule.

                              Based on information CCC provided supporting its FY 2000
                              financial statements, it appears CCC exceeded the $36.2 million
                              limitation amount shown in its FY 2000 Apportionment Schedule by
                              about $11.7 million based on total transfers of $47.9 million.
                              However, we did not establish the exact amount actually
                              transferred by CCC each fiscal year or the amount(s) applicable to
                              the Section 11 limitation.

                         •    We reported in our FY 1999 audit, that CCC’s budgetary accounts
                              relating to foreign loan credit programs reflected a negative
                              balance of $5 million. (A negative balance could indicate the
                              possibility of an Anti-Deficiency Act violation.) In our report, we
                              recommended that CCC complete a review of its appropriations
                              and apportionments to assure that no Anti-Deficiency Act violations
                              occurred and report to Congress, as required, if it was found that
                              an Anti-Deficiency Act violation occurred. CCC advised it had

9
 Transfers in excess of the limit equals the limit less obligations and fees transferred.
10
   CCC initially established a $46.2 limitation in 1999 but after OGC opined in April 1998 that CCC had erroneously included $10
million in expenditures for the Emerging Markets Program, the limitation was lowered to $36.2 effective for FY’s 1999 and beyond.



USDA/OIG-A/06401-14-FM                                                                                                Page 29
                             found the payments were made against the wrong appropriation.
                             Since CCC believed it had authority to transfer funds between two
                             appropriations, it transferred the funds from the correct
                             appropriation to eliminate the negative fund balance with Treasury.

                             Based upon our current audit, we do not believe CCC has fully
                             analyzed and resolved this matter. We noted that CCC corrected
                             (transferred) funds for only a portion of the incorrect payments.
                             Furthermore, CCC was unable to provide us any interpretation
                             and/or legal opinion supporting its assertion that it had authority to
                             transfer the funds.

                        •    The Livestock Indemnity Program was authorized by the general
                             provisions of the 1999 Emergency Supplemental Appropriations
                             Act (Public Law 106-31) and an amount of $3 million was
                             appropriated to implement the program for losses occurring during
                             specific dates. CCC officials reported to us that CCC disbursed
                             $50,000 in FY 2000 more than was appropriated for the program.
                             After consulting with the OGC, it was determined that there was no
                             other authority to utilize any other appropriated CCC, USDA or FSA
                             funds, including the Disaster Reserve, to cover the amount. The
                                                                                                11
                             OGC suggested that CCC utilize its claims settlement authority in
                             settling and adjusting potential claims from producers rather than
                             attempting to recover the payments from them and incurring
                             additional costs as a result of potential litigation. Accordingly, CCC
                             advised us that these monies were reimbursed to the appropriation
                             from CCC’s revolving fund in FY 2001 under CCC claims
                             settlement authority.

                                       Perform a comprehensive review to identify all
     RECOMMENDATION NO. 14             foreign loan credit program payments, which
                                       were paid from the incorrect appropriation and
                                       make the necessary corrections, and
           ascertain whether a violation of the Anti-Deficiency Act did occur.

                                         Provide the facts and circumstances for these
     RECOMMENDATION NO. 15               cited conditions to the OGC and request
                                         written legal opinions on whether violations of
                                         the Anti-Deficiency Act have occurred. Report
           to Congress, as required, if it is determined by OGC that Anti-Deficiency
           Act violations have occurred. Also, obtain an OGC opinion regarding the
           legality of transferring funds between the various P.L. 480 appropriations.

11
    15 USC 714b(k) provides that “CCC shall have the authority to make final and conclusive settlement and adjustment of any
claims by or against the Corporation or the accounts of its fiscal officers”.

USDA/OIG-A/06401-14-FM                                                                                              Page 30
   VII. ANNUAL REVIEW OF USER FEES NOT PERFORMED FOR ALL
   PROGRAMS


                                        As reported, in our FY 1999 financial
          FINDING NO. 8                 statement audit, CCC has not yet conducted
                                        required annual reviews of fees associated
                                        with the GSM guarantee program. As a
                                        result, the fees CCC charges for its GSM-102
             and GSM-103 export credit guarantee programs have not been changed
             in 7 years and may not be reflecting current costs.

             OMB Circular A-129, dated November 29, 2000, Section II, 3 b states:
             “Agencies should establish interest and fees structures for direct loans
             and loan guarantees and should review structures at least annually….
             Interest and fees should be set at levels that minimize default and other
             subsidiary costs, of the direct loan or loan guarantee, while supporting the
             achievement of the program’s policy objectives.”

             We reported previously that CCC’s GSM-102 Export Credit Guarantee
             Program has a legislative requirement that prohibits the charging of a fee
             in excess of 1 percent of the guarantee. Under CCC regulations, current
             fees range from 15.3 cents per $100 guaranteed for a 90-day credit
             guarantee, to 66.3 cents per $100 guaranteed on a 36-month credit
             guarantee. There is no legislative limit on the fees that CCC can charge
             on the GSM-103 program. We recommended in our prior audit that CCC
             conduct the required review of fees to assure the charges are set at levels
             that minimize the corporation’s cost without unduly impairing these loan
             program’s policy objectives, and ensure that these loan guarantee fees
             are reviewed annually in the future. In response to our recommendations,
             CCC stated that the Foreign Agricultural Service would work with the OCFO
             staff to develop a standard template for an annual review of fees.

             Because of the recommendations made in our prior report and CCC’s
             planned corrective actions, we are making no further recommendations at
             this time.

We considered these reportable instances of noncompliance in forming our opinion on
whether CCC's FY 2000 financial statements are presented fairly, in all material respects,
and this report does not modify the disclaimer of opinion on CCC’s financial statements


USDA/OIG-A/06401-14-FM                                                           Page 31
expressed in our report dated May 1, 2001.

This report is intended solely for the information and use of the management of CCC,
OMB and Congress, and is not intended to be and should not be used by anyone other
than these specified parties.




ROGER C. VIADERO
Inspector General

May 1, 2001




USDA/OIG-A/06401-14-FM                                                        Page 32
                          ABBREVIATIONS

AICPA          American Institute of Certified Public Accountants
CCC            Commodity Credit Corporation
CFO            Chief Financial Officer
CORE           CORE Accounting System
DM             Departmental Manual
FMD            Financial Management Division
FFMIA          Federal Financial Management Improvement Act of 1996
FMFIA          Federal Manager’s Financial Integrity Act of 1982
FSA            Farm Service Agency
FY             Fiscal Year
GAO            General Accounting Office
GSM            General Sales Manager
IT             Information Technology
OCFO           Office of Chief Financial Officer
OGC            Office of the General Counsel
OIG            Office of Inspector General
OMB            Office of Management and Budget
PC             Personal Computer
SGL            U.S. Government Standard General Ledger
Treasury       U.S. Treasury
USDA           U.S. Department of Agriculture
USAID          U.S. Agency for International Development




USDA/OIG-A/06401-14-FM                                                Page 33
                             COMMODITY CREDIT CORPORATION

                             Management’s Discussion and Analysis
                                    September 30, 2000

Management’s Discussion and Analysis               and other operations, and make available
(MD&A) provides a high level overview of           materials and facilities required in the
the Commodity Credit Corporation (CCC).            production and marketing of agricultural
MD&A describes who we are, what we do              commodities.
and how well we meet our goals.
                                                   The CCC Charter Act also authorizes the sale
The Mission and Organizational Structure           of agricultural commodities to other
section contains a brief description of CCC’s      government      agencies    and      foreign
mission, related organizational structure,         governments and the donation of food to
and the major programs we fund.                    domestic, foreign, or international relief
                                                   agencies.      CCC also assists in the
Next, the MD&A discusses major issues and          development of new domestic and foreign
challenges that CCC will face in the future        markets and marketing facilities for
(i.e., e-commerce service delivery, USDA           agricultural commodities.
service center initiative, and CCC trends).
While these issues are challenging, we             Since 1933, CCC has been the Federal
believe we have plans in place to help             Government’s financing arm for an array of
ensure they are adequately addressed.              domestic and international farm programs.
                                                   The principal operations conducted by CCC
In addition, the Performance Goals and             include commodity loan and inventory
Results section displays selected indicators       management activities, donations and sales
from the Farm Service Agency (FSA) 2000-           of     government-owned       stocks     for
2005 Strategic Plan as it relates to CCC and       humanitarian or commercial uses, foreign
our FY 2000 Annual Performance Plan.               market     development,    export     credit
                                                   guarantees, and conservation practices.
Finally, we address CCC’s Financial
Highlights and Results of Operations and           CCC has no employees. The Corporation
Management Controls.                               carries out its program objectives through
                                                   personnel and with the support of the FSA,
MISSION AND ORGANIZATIONAL                         Agricultural Marketing Service, Natural
STRUCTURE                                          Resources Conservation Service (NRCS),
                                                   Foreign Agricultural Service, other agencies
The CCC is a wholly owned government               of the Department of Agriculture, and the
corporation, created to stabilize, support,        U.S. Agency for International Development.
and protect farm income and prices. CCC
also helps maintain balanced and adequate          CCC is managed by a Board of Directors,
supplies of agricultural commodities and           subject to the general supervision and
aids in their orderly distribution.                direction of the Secretary of Agriculture,
                                                   who is an ex-officio director and chairperson
CCC was incorporated October 17, 1933,             of the Board. The Board consists of seven
under a Delaware charter. On July 1, 1939,         members, in addition to the Secretary, who
CCC was transferred to the United States           are appointed by the President of the United
Department of Agriculture (USDA). It was           States, with the advice and consent of the
reincorporated on July 1, 1948, as a Federal       Senate. The members of the Board and the
corporation within USDA by the CCC Charter         Corporation’s officers are officials of USDA.
Act.                                               The organizational chart on page 2 shows a
                                                   layout of CCC’s Board of Directors as of
The CCC Charter Act, as amended,                   September 2000.
authorizes CCC to aid producers through
loans, purchases, income support payments,




                                                                                      Page 1
                                       COMMODITY CREDITY CORPORATION

                                       Management’s Discussion and Analysis
                                              September 30, 2000


         Commodity Credit Corporation Organizational Chart, Fiscal Year 2000
                                                 Board of Directors

                                           Chairman, Daniel R. Glickman
                                           Secretary, USDA

                                           Vice Chairman, Richard E. Rominger
                                           Deputy Secretary, USDA



Member, August Schumacher, Jr.             Member, Shirley Robinson Watkins              Member, Michael V. Dunn
Under Secretary, Farm & Foreign            Under Secretary, Food & Nutrition             Under Secretary, Marketing & Regulatory
Agricultural Services, USDA                Service, USDA                                 Programs, USDA

Member, Jill Long Thompson                 Member, I. Miley Gonzalez                     Member, Keith Kelly
Under Secretary, Rural Economic &          Under Secretary, Research, Education &        Administrator, Farm Service
Community Development, USDA                Economics, USDA                               Agency, USDA


                                                         Officers

                                           President, August Schumacher, Jr.
                                           Under Secretary, Farm & Foreign
                                           Agricultural Services

                                           Executive Vice President, Keith Kelly
                                           Administrator, Farm Service Agency




Vice President, Parks Schackelford         Deputy Vice President, Alex King                 Secretary, VACANT
Associate Administrator, FSA               Deputy Administrator,                            Executive Assistant to the Administrator,
                                           Commodity Operations, FSA                        FSA
Vice President, George Arredondo
Associate Administrator,                   Acting Deputy Vice President, John Williams      Deputy Secretary, Jack Sikora
Operations and Management, FSA             Deputy Administrator, Management, FSA            Director, Strategic Management and
                                                                                            Corporate Operations Staff, FSA
Vice President, Kathleen Merrigan          Deputy Vice President, Larry Mitchell
Administrator, AMS                         Deputy Administrator, Farm Programs, FSA         Assistant Secretary, Juanita Daniels
                                                                                            Staff Assistant, Strategic Management
Vice President, Timothy Galvin             Deputy Vice President, Larry Walker              and Corporate Operations Staff, FSA
Administrator, FAS                         Director, Economic & Policy Analysis
                                           Staff, FSA                                       Acting Controller, Sally F. Nunn
Vice President, Richard Fritz                                                               Acting Director, Financial Management
General Sales Manager, FAS                 Deputy Vice President, Danny Sells               Division, FSA
                                           Associate Chief, NRCS
Vice President, Samuel Chambers, Jr.                                                        Treasurer, Sally Nunn
Administrator, FNS                         Deputy Vice President, Thomas A. Weber           Deputy Director, Financial Management
                                           Deputy Chief, Programs, NRCS                     Division, FSA
Vice President, Pearlie S. Reed
Chief, NRCS                                Deputy Vice President, Dwight P. Holman          Chief Accountant, Dwight T. Tayman
                                           Deputy Chief, Management, NRCS                   Chief, Financial Accounting & Reports
                                                                                            Branch, Financial Management
                                                                                            Division, FSA




                                                                                                            Page 2
                             COMMODITY CREDITY CORPORATION

                             Management’s Discussion and Analysis
                                    September 30, 2000



Officers of CCC, directly or through officials     have been recognized as an important
of designated USDA agencies, maintain              aspect to a stable agricultural economy and
liaison with numerous other governmental           are subject to significant fluctuations in
and private trade operations.          CCC’s       supply and demand.
commodity programs must be approved by
the Board of Directors and/or Secretary of         Loans are provided to producers of wheat,
Agriculture.                                       corn, grain sorghum, barley, oats, soybeans,
                                                   minor oilseeds, rice, upland cotton and extra
Most of CCC’s programs are delivered               long staple cotton.
through an extensive network of FSA field
offices, including over 2,500 USDA Service         Loans on eligible commodities made to
Centers and 51 State Offices (including            producers are nonrecourse, i.e., if market
Puerto Rico).       This extensive network         prices rise above the loan level, the
enables FSA/CCC to maintain close                  producer can repay the loan with interest,
relationships with agency customers and            and sell the crop in the market. If prices fall
successfully address customer’s needs in an        below the loan level, the producer can
effort to continually improve the delivery of      forfeit the commodity to CCC in full payment
our programs.                                      of the loan. A producer must have entered
                                                   into a production flexibility contract to be
MAJOR PROGRAMS AND OPERATIONS                      eligible for nonrecourse loans for wheat,
                                                   feed grains, rice and upland cotton. The
The following is a summary of the major            nature of these programs affect the volume
programs and operations of CCC.                    of producer participation. Policy decisions
                                                   also can have a significant effect on the
Commodity Price Support Loan, Marketing            level of price support or marketing
Assistance Loan, and Purchase Programs             assistance loan provided to a participant.

Producers complying with the provisions of         CCC outstanding commodity loans increased
annual farm programs are eligible to receive       to $3.1 billion as of September 30, 2000.
price support and marketing assistance             Reduced market prices resulted in more
loans from CCC. The Federal Agriculture            loans made ($9.7 billion) in relation to loans
Improvement and Reform Act of 1996 (1996           repaid ($7.0 billion) during the fiscal year.
Act) provides for the administration of these      Additionally, there was a sharp increase in
and other agricultural and food programs.          marketing loan losses, whereby some
Generally, the objectives of these programs        portion of repayment of loan principal and
are to provide income support for                  interest is waived, rather than the forfeiture
producers, and to provide price support or         of loan collateral being delivered to the
marketing assistance loans while ensuring          Corporation. Marketing loan losses totaled
the orderly marketing of commodities.              $1,697 million in fiscal year 2000, as
While the 1996 Act provides for production         compared to $988 million in the prior fiscal
flexibility contracts for those commodities        year.
which have traditionally been eligible for
deficiency payments, it also continues to          The chart on the following page shows the
provide for specific marketing assistance          recent   history  of    commodity   loans
loans for those commodities.                       outstanding.

Commodities pledged as collateral for price
support and marketing assistance loans




                                                                                        Page 3
                                                           COMMODITY CREDITY CORPORATION

                                                           Management’s Discussion and Analysis
                                                                  September 30, 2000


                               Total Loans Outstanding                           CCC to operate conservation programs
                                   As of September 30                            otherwise provided by law.
                $3.5

                $3.0
                                                                                 For the fiscal year ended September 30,
                $2.5                                                             2000, CCC incurred net expenses for
                                                                                 conservation programs in the amount of
(In Billions)




                $2.0

                $1.5                                                             $2,225 million.
                $1.0

                $0.5
                                                                                 Commodity Inventory Operations

                                                                                 Under the income support and marketing
                $0.0
                        1995     1996    1997       1998      1999     2000
                        $2.4     $1.3    $1.3       $2.2      $2.4     $3.1
                                                                                 assistance loan programs authorized under
                                                                                 Title I of the 1996 Act, CCC may acquire
During fiscal year 2000, CCC loan                                                commodities through purchases and loan
repayments increased slightly to $6,957                                          forfeitures. Commodity inventories are
million, as compared to $6,903 million last                                      valued at their acquisition cost plus the cost
year.     A comparison by commodity is                                           of    processing   and      packaging    after
presented below.                                                                 acquisition. Commodities acquired by CCC
                                                                                 are subsequently disposed of according to
                       Commodity Loan Repayments                                 various statutes. Dispositions include sales
                              (In Millions)                                      and donations. CCC recognizes realized
                       Commodity                FY 2000        FY 1999           gains or losses at the time of inventory
                Feed Grains                     $   2,301      $     2,732
                                                                                 disposition. The following table presents
                                                                                 CCC’s net inventory for fiscal years 1999 and
                Soybeans                            1,226            1,370       2000.
                Cotton                              1,566             941
                Wheat                                 365             691                        Inventory, Net*
                                                                                                   (In Millions)
                All Other*                          1,499            1,169
                                                                                                                   FY            FY
                Total Repayments                $   6,957      $     6,903               Description              2000          1999
*Includes rough rice, tobacco, honey, peanuts, sugar,
oilseeds and mohair.                                                             Inventory, Beginning         $     714     $     531
                                                                                 Acquisitions                      1,768          996
Conservation Programs                                                            Cost of Sales                      (858)        (135)
                                                                                 Donations                          (396)        (691)
The 1996 Act expanded CCC’s farm                                                 Other                               (24)          13
programs in fiscal year 1996, to provide for                                     Inventory, Ending                 1,204          714
                                                                                 Less Allowance for Losses          (702)        (358)
the use of CCC funds for the Conservation
Reserve Program (CRP). In addition, it also
                                                                                 Commodity Inventories, Net   $     502     $     356
authorized several other conservation
programs.       The Farmland Protection
Program provides incentives for land to
remain available for agricultural uses. The
Environmental Quality Incentive Program
was created to consolidate several
conservation programs and expand financial
incentives   for    adopting    conservation
practices. Furthermore, the Charter Act was
amended to provide general authority for




                                                                                                                            Page 4
                             COMMODITY CREDITY CORPORATION

                             Management’s Discussion and Analysis
                                    September 30, 2000


Foreign Programs
                                                                  Foreign Activity
CCC's foreign programs provide economic                       Selected Financial Data
stimulus to both the U.S. and foreign                               (In Millions)
markets, while also giving humanitarian                                               FY          FY
assistance to the most needy people                       Description                2000        1999
throughout the world.
                                                   P. L. 480 Direct Credits          $11,342      $11,191
                                                   Outstanding Receivables as of
Through      separate    appropriation   and       September 30
borrowing     authority,   the    Corporation
extends credit and export credit guarantees        Claims and Rescheduled              7,302        7,267
                                                   Export Credit Guarantees
in addition to making grants and donations.
                                                   Outstanding as of
Extension of concessional credit is made           September 30
under Title I of P.L. 480. CCC provides
short- and intermediate-term export credit         FY 2000 Guarantee Claims              146          244
                                                   Paid
guarantees to exporters of U.S. agricultural
commodities, which creates jobs in the U.S.        Port Value of GSM                   4,470        4,800
farm and food processing industries, while         Registrations Issued through
improving the U.S. balance of payments and         September 30
trade deficit. Guarantees are made under
                                                   GSM Guarantees Issued for           4,363        4,696
four Export Credit Guarantee programs (also        Registrations through
known as GSM programs) designated as the           September 30
GSM-102, GSM-103, Supplier Credit, and
                                                   Direct Sales Program (Office           42           42
Facility programs. The GSM-102 Program
                                                   of General Sales Manager)
offers short-term coverage of up to 3 years,       Outstanding Receivables
and     the    GSM-103      Program    offers
intermediate-term coverage of 3-10 years.          Donations and Grants through        1,032        1,183
                                                   September 30*
The Supplier Credit Program guarantees
payment up to 180 days.          The Facility      Market Access Program                   94          114
Program promotes the export of U.S.                Payments through
agricultural commodities or products to            September 30
emerging markets, and guarantees coverage          *Includes Sections 416, Title I, Food for Progress, and
                                                   Title II, Title III, Food for Progress.
up to 10 years. As of September 30, 2000,
no guarantees were recorded for this
program. Through the GSM programs, CCC
guarantees payment of credit extended by
the private U.S. banking sector to foreign
banks, issuing irrevocable letters of credit,
for food and agricultural products sold to
foreign buyers.




                                                                                               Page 5
                             COMMODITY CREDITY CORPORATION

                             Management’s Discussion and Analysis
                                    September 30, 2000


MAJOR ISSUES FACING CCC                            high quality service from one location.
                                                   Over the past several years, the USDA has
E-Commerce Services                                consolidated and co-located agency offices
                                                   at the county level by establishing Service
FSA/CCC has made considerable progress             Centers to deliver programs and services
planning implementation of e-commerce              more efficiently and at reduced cost.
services and developing the supporting             Approximately 2,500 Service Centers are
infrastructure,   as   required  by   the          now in place. However, the disparate, stand
Government Paperwork Elimination Act, the          alone, legacy computer systems of the
Presidential Memorandum on "Electronic             Service Center agencies, which consist
Government," the Freedom to E-File Act,            largely of 1980's and early 1990’s
and the Office of Management and Budget.           technology, have posed a formidable barrier
                                                   to achieving many of the objectives of the
FSA/CCC has engaged in the Electronic              Service Center initiatives.
Access Initiative (EAI) to develop a common
internet-based service delivery architecture       From 1997 through 2000, significant
with other USDA agencies by FY 2002.               progress was made by the Service Center
Through EAI, the partner agencies have             agencies in addressing portions of the
adopted a "web-farm" concept where                 outdated technologies. This included the
FSA/CCC can host highly available, secure,         installation of telecommunication systems in
and scalable web-based services for USDA           2,522 Service Centers, over 35,000 identical
customers, employees, and partners. These          workstations       with     common      office
services will be provided through a                automation software and over 7,500
coordinated       web-farm       management        shareable printers.      A plan has been
structure,    and    common      e-commerce        developed for migrating CCC's legacy
policies, procedures, technologies, and            software application programs to the
management processes.                              common computing environment that is
                                                   being implemented in the Service Centers.
While we have made considerable progress           The plan was shared with the Office of
planning the implementation of e-commerce          Management and Budget and Congress as
services, FSA/CCC has significant cultural         part of the request to fund the acquisition.
issues to overcome as we migrate from a            It is now being reviewed by program
one-on-one service delivery organization to        managers and it will need to be approved by
an e-commerce service provider.          In        the     new     Administration's   leadership.
addition, more funding, extensive training,        Implementation of legacy systems are
and new user and technical support                 targeted to begin in October 2002, with the
mechanisms are needed to support our on-           final migration occurring in February 2004.
line delivery of services. Funding deficits
will begin to impact our progress beginning        Dependencies that may impact the
in FY 2001.                                        migration plan are acquiring system
                                                   connectivity and file transmission software,
USDA Service Center Modernization                  defining common functions and security
Initiative                                         requirements and developing standards. In
                                                   addition to the technology dependencies,
One major Departmental project affecting           the farm economy and possible new
CCC is the USDA Service Center                     legislation impose uncertainties.      It is
Modernization Initiative. This initiative will     difficult to assess the impact these may
provide one-stop service to customers, with        have on having fully operational Service
access to multiple agencies which provide          Centers in 2004, while still maintaining our



                                                                                       Page 6
                             COMMODITY CREDITY CORPORATION

                             Management’s Discussion and Analysis
                                    September 30, 2000


business operations and providing quality          future forecasts.    The new Farm Bill is
service to our customers.                          expected to be out by the end of FY 2001 or
                                                   beginning of FY 2002. This may change the
CCC Trends                                         entire direction that CCC takes in providing
                                                   assistance to farmers and ranchers. The
In FY 2001, the Commodity Credit                   Commission on the 21st Century Agriculture
Corporation will continue to support the U.S.      reported to Congress recently and made
farmers and ranchers in providing disaster         recommendations for future assistance.
assistance     in     numerous      programs.      This may also play a part in molding CCC
Marketing loss assistance and crop loss            agricultural programs.     Lastly, the new
assistance payments are anticipated to be          Administration is anticipated to provide
over $2 billion and livestock assistance will      guidance on the direction USDA and CCC
be even higher in FY 2001 than in FY 2000.         will operate and provide assistance in the
New disaster assistance programs in FY             future.
2001 will provide assistance on crops which
have not been included in the recent past,         PERFORMANCE GOALS AND RESULTS
such as apples, potatoes, and citrus crops.
Dairy assistance will remain high in FY 2001.      CCC has placed a considerable focus on
Loan deficiency and production flexibility         improving     its    financial   management
payments are expected to remain high. We           practices, the effectiveness of its programs
expect to see a small decline in loans made        and its own accountability to the public.
down to $8.7 billion, but this is still            The Chief Financial Officers Act of 1990 (the
considered a relatively high loan level.           CFO Act) mandates financial management
                                                   reform by requiring agencies to take steps
Participation in the conservation programs         to improve financial management systems
are anticipated to be higher than FY 2000,         and information. The CFO Act also requires
with a significant increase in the                 that agency financial management systems
Conservation Reserve Program, specifically.        provide for the systematic measurement of
Other programs which may have increased            performance. In addition, the Government
participation in FY 2001 include the               Performance and Results Act of 1993
Farmland          Protection      Program,         (GPRA) created requirements for agencies to
Environmental Quality Incentive Program,           generate information that congressional and
and the Wetlands Reserve Program.                  executive branch decision makers need in
                                                   considering       measures     to    improve
In FY 2000, CCC began funding the Foreign          government performance and reduce costs.
Market Development Cooperative Program             GPRA is aimed directly at improving agency
and the Quality Samples Program.       We          program performance.
expect participation in these programs to
continue. Other foreign programs include           Following the requirements of these two
the P.L. 480 programs and the Export Credit        landmark reforms, in fiscal year 1997, FSA
Guarantee programs, including the funds for        completed a 5-year strategic plan, which
ocean transportation, are expected to              provides a mission statement, vision, and
continue at a stable pace for the near             long-term strategic goals for the Agency
future.                                            (this plan was subsequently updated in fiscal
                                                   year 2000). The plan describes the methods
Beyond FY 2001, it becomes very difficult to       that will be used to achieve such goals
predict the future. While the budget is            through FSA/CCC activities and through the
prepared using current assumptions, there          Agency's human, capital, information and
are a number of variables that may revise          other resources. The following program and



                                                                                      Page 7
                              COMMODITY CREDITY CORPORATION

                              Management’s Discussion and Analysis
                                     September 30, 2000


financial    management     performance             market loss assistance payments) in the
measures are consistent with the major              amount of $5,060 million, compared to
goals established by FSA in its strategic           $5,472 million in fiscal year 1999.
plan.
                                                    One of CCC’s major objectives is to maintain
                                                    a high PFC participation rate for eligible
                                                    producers.     Based upon the amount of
   Performance Goal:                                average acreage enrolled in the program,
                                                    the Corporation’s goal is to achieve a 98%
   Provide an economic safety net                   annual participation rate during the period
   through farm income support to                   of fiscal years 1997 through 2002. For the
   eligible producers, cooperatives, and            fiscal year ended September 30, 2000, the
   associations to help improve the                 total production flexibility contract acreage
   economic stability and viability of the          enrolled was 213 million out of a total 214
   agricultural sector and to ensure the            million potential acreage. This reflects a
   production of an adequate and                    99% annual participation rate for the
   reasonably priced supply of food and             program.
   fiber.

   Objectives:                                                Production Flexibility Contracts
                                                                  Net Farm Participation
   Maintain      a   high    Production
                                                      (In Thousands)
   Flexibility Contract      (PFC) rate                                  1,778 Farms
   for eligible acreage.                                  2,000

                                                          1,500
   Stabilize the price and production of                                                858 Farms
   tobacco and peanuts.                                   1,000

                                                            500

                                                               0
The 1996 Act provided a one-time sign-up                                PFC             ARP
for Production Flexibility Contracts, whereby                          FY 2000         FY 1995
producers receive seven annual fixed, but
declining, payments for fiscal years 1996
through 2002.           The payments are
independent of farm prices and crop                 During fiscal year 2000, the number of
production, enabling        crop production         farms maintaining participation under a PFC
decisions and farm commodity prices to be           was significantly higher as compared to the
determined by market factors, rather than           number of farms that were typically enrolled
government subsidies and production                 in the predecessor Acreage Reduction
controls.     Participating producers must          Programs (ARP). High PFC participation
comply with highly erodible land and                indicates that eligible producers view the
wetland conservation requirements, as well          program as a farm income support option,
as fruit and vegetable planting restrictions in     which contributes to the economic stability
order to receive payments.                          and viability of the agricultural sector.

For the fiscal year ended September 30,             CCC tobacco and peanut price support
2000, CCC incurred net expenses for                 programs provide loans to eligible producers
production flexibility contracts (excluding         through loan associations under cooperative




                                                                                                    Page 8
                                   COMMODITY CREDITY CORPORATION

                                   Management’s Discussion and Analysis
                                          September 30, 2000


agreements with CCC.      These programs                                Analysis of Peanut
operate at no-net-cost to the Federal                                  Price Support Activity
Government. As such, tobacco and peanut                                                            Variance
allotments and quotas, approved by                          Activity      Actual*      GPRA       Favorable/
producers in referenda, are established to                                             Goal        Unfavor-
                                                                                                     able
help ensure a balance between supply and
demand in the marketplace. Furthermore,                   Crop Year
producers, and in some cases, purchasers of               1999
certain tobacco and peanuts incur a
                                                          Average          $.00366    $.00366        0.00%
marketing assessment for tobacco and
                                                          Assessment                                favorable
peanuts brought into the marketplace.                     per Pound
                                                          of Peanut –
Maintaining a balance between supply and                  Quota
demand in the marketplace stabilizes the
                                                          Average           $.0011      $.0011       0.00%
price of tobacco and peanuts by helping to                Assessment                                favorable
ensure that market prices equal or exceed                 per Pound
price support loan rates. When market                     of Peanut –
                                                          Non-quota
prices exceed loan rates, producers’ income
improves and loans outstanding decrease,                  Crop Year
thereby lowering expenses associated with                 1998
the operation of the tobacco and peanut
                                                          Average          $.00366    $.00366        0.00%
price support programs. Assessments are
                                                          Assessment                                favorable
collected to cover losses on certain tobacco              per Pound
and peanut loans.                                         of Peanut –
                                                          Quota
                Analysis of Tobacco                       Average            $.0011       $.0011       0.00%
               Price Support Activity                     Assessment                                  favorable
                                          Variance        per Pound
    Activity       Actual*     GPRA      Favorable/       of Peanut –
                               Goal       Unfavor-        Non-quota
                                            able         *Represents fiscal year 2000 activity for crop year 1999
                                                         and fiscal year 1999 activity for crop year 1998.
 FY 2000

 Price Per            $1.83     $1.70         8%
 Pound of                                  favorable
 Tobacco

 Assessment           $.041    $.0800        49%
 per Pound of                              favorable
 Tobacco

 FY 1999

 Price Per            $1.84     $1.70         8%
 Pound of                                  favorable
 Tobacco

 Assessment         $.0360 $.0800            55%
 per Pound of                              favorable
 Tobacco
*Estimated average market price for crop years 1999
and 2000 as of September 30 of the applicable crop
year.




                                                                                                     Page 9
                             COMMODITY CREDITY CORPORATION

                             Management’s Discussion and Analysis
                                    September 30, 2000


                                                   extension of existing contracts, regularly
                                                   scheduled sign-up periods, early termination
  Performance Goal:                                of contracts on less environmentally
                                                   sensitive acreage, and a continuous sign-up
  Assist agricultural producers and                for select environmental priority practice
  landowners in achieving a high level of          acreage.
  stewardship of soil, water, air, and
  wildlife resources on America’s farms            For the fiscal years ended September 30,
  and ranches while protecting the                 2000 and 1999, the Corporation incurred net
  human and natural environment.                   outlays for CRP in the amount of $1,512
                                                   million and $1,434 million, respectively.
  Objective:
                                                   Maintaining high enrollment levels in CRP
  Provide CRP funding to help improve              and implementing approved conservation
  environmental quality, protect natural           practices on enrolled lands, restoring
  resources, and enhance habitat for fish          wetlands, and improving wildlife habitat
  and wildlife, including threatened and           protects the nation’s natural resources and
  endangered species.                              assists agricultural producers in attaining a
                                                   high level of stewardship on America’s
                                                   farmland and ranches.
The CRP is the Federal Government’s single
largest       environmental       program,
safeguarding millions of acres of American               Conservation Reserve Program
topsoil from erosion, increasing wildlife                           Activity
habitat, and protecting ground and surface                          FY 2000          FY 1999
water.                                                 (In                GPRA             GPRA
                                                    Millions)    Actual   Goal    Actual   Goal

CRP participants sign a contract with CCC           Number of       31.5   32.8     30.3    31.1
for a period of 10 to 15 years under which          Acres
highly erodible cropland and certain other          Enrolled
environmentally sensitive land are retired
                                                    Acres of        24.9   24.0     23.0    23.1
from production for the duration of the             Highly
contract      period,      and     permanent        Enrolled
conservation practices are established on           Land
                                                    Retired
enrolled land. In return, CCC provides
participants annual rental payments, makes          Restored         1.5    1.6      1.4     1.4
cost-sharing     assistance    on   long-term       Acres of
resource conserving cover and other                 Wetlands
conservation practices, and arranges for
                                                    Acres            2.2    2.0      2.0     2.0
technical assistance in cooperation with the        Planted
Natural Resources Conservation Service, the         with Trees
Forest Service, and the U.S. Fish and
Wildlife Service. The 1996 Act amended the
Food Security Act of 1985 to provide that
CCC may maintain an enrollment of up to
36.4 million acres in the CRP through
September 30, 2002.           Actual enrolled
acreage will vary from year to year due to
program provisions which allow for



                                                                                     Page 10
                             COMMODITY CREDITY CORPORATION

                             Management’s Discussion and Analysis
                                    September 30, 2000


                                                                     FY 2000            FY 1999
 Performance Goals:                                                        GPRA               GPRA
                                                                 Actual    GOAL     Actual    GOAL

 Improve financial management and                  Percentage     100%     100%       90%      100%
 reporting                                         of Eligible
                                                   Debts
                                                   Referred
 Objectives:
                                                   to
                                                   Treasury
 Participate in Treasury’s Offset and Cross-       Offset
 Servicing Programs Under the Debt                 Program
 Collection Improvement Act of 1996
                                                   Percentage      100%    100%         86%      100%
                                                   of Eligible
 Obtain an unqualified audit opinion on            Debts
 CCC’s Financial Statements                        Referred
                                                   to
                                                   Treasury
                                                   for Cross-
                                                   Servicing*
CCC’s Participation in Treasury’s Offset and       *FSA/CCC implemented Treasury Cross-Servicing
Cross-Servicing Programs                           Program in July 1999.

                                                   Audit of the Corporation’s Financial
The Debt Collection Improvement Act of
                                                   Statements
1996 requires all Federal agencies to refer
debts over 180 days delinquent to the
                                                   CCC’s goal is to obtain an unqualified audit
Department of Treasury for inclusion into
                                                   opinion on its financial statements. CCC is
the Treasury’s Offset (TOP) and Cross-
                                                   working with the USDA Chief Financial
Servicing Programs. TOP is designed to
                                                   Officer and the Office of Inspector General
assist agencies in the collection of debt
                                                   (OIG) to resolve prior audit concerns and to
owed to the Federal Government. Cross-
                                                   ensure its financial statements are in
servicing is the process whereby Federal
                                                   compliance with Federal and Departmental
agencies refer delinquent debts to Treasury
                                                   policies and standards.
for collection. In FY 2000, FSA/CCC referred
10,553 debts, valued at $66.4 million to the
                                                   In FY 1995, OIG issued an unqualified audit
TOP and 831 debts valued at $9.6 million to
                                                   opinion on CCC’s financial statements. In FY
Treasury’s Cross-Servicing Program. As a
                                                   1996, however, CCC received a disclaimer of
result of these referrals, FSA/CCC received
                                                   opinion on its statements because OIG cited
$1.4 million in offsets from Federal
                                                   potential irregularities in the administration
payments that were scheduled to be made
                                                   of the FSA funded Agricultural Mediation
to individuals who have delinquent debts
                                                   Program.      The state officials, who are
with the FSA/CCC, and $1.9 million in cross-
                                                   responsible for administering the program
servicing due to Treasury’s collections
                                                   on behalf of FSA, denied OIG access to
efforts.
                                                   certain mediation records. Consequently,
                                                   OIG could not determine the impact, if any,
                                                   of the potential irregularities on CCC’s
                                                   programs and financial statements.




                                                                                        Page 11
                                     COMMODITY CREDITY CORPORATION

                                     Management’s Discussion and Analysis
                                            September 30, 2000


In FY 1997, CCC’s financial statements                            FY 2000 Outlays and Receipts
received an unqualified opinion because the                                (In Million)
scope limitation regarding restrictions                                                                Percentage
imposed on OIG’s access to certain records                     Activity      Plan 1/      Actual     Difference 2/
during fiscal year 1996 were removed. In                     Total            $25,648 $42,809             66.91%
                                                             Outlays
FY 1998, CCC received a disclaimer because                   – CCC
the Corporation was not able to provide                      Total            $11,786 $10,544            -10.54%
sufficient and competent evidential matter,                  Receipts
within the timeframes provided by the                        Net Outlays         $558        $797        42.83%
                                                             – Public
Department, to substantiate the line items
                                                             Law 480
related to CCC’s direct credit and credit                  1/ As estimated in fiscal year 2000 Mid-Session Review.
guarantee programs. In FY 1999, the OIG                    2/ A positive (or negative) percentage difference
issued a qualification because substantial                 represents the underestimation (or overestimation) of
time was taken by CCC after the                            fund resources for FY 2000.
Department’s deadline had passed to                        Domestic program expenses for the fiscal
provide OIG the FY 1999 financial                          year ended September 30 were $25,212
statements.                                                million in 2000, and $20,451 million in 1999.
                                                           The dollar amount of domestic program
            Type of Audit Opinion                          expenses increased from the prior year due
          Fiscal Years 1990 - 2000                         to final market loss assistance payments
   Fiscal Year               Audit Opinion*                made to eligible owners and producers
       2000                   Not Available                under the Agricultural Risk Protection Act of
       1999                     Qualified                  2000.
       1998                    Disclaimer
       1997                    Unqualified
       1996                    Disclaimer                        Domestic Program Expenses
       1995                    Unqualified                               (In Millions)
       1994                    Unqualified                   Program Expense          FY 2000       FY 1999
       1993                    Unqualified                  Market Loss               $ 10,923      $    2,811
       1992                    Unqualified                  Assistance
       1991                    Unqualified                  Income Support and           10,098         12,911
       1990                    Unqualified                  PFC Program
*CCC’s goal is to obtain an unqualified audit opinion.      Conservation                   2,225         2,364
                                                            Programs
CCC’S FINANCIAL HIGHLIGHTS                                  Disaster Programs              1,882         2,276
AND RESULTS OF OPERATIONS                                   All Other*                        84            89

The following two pages highlight significant               Total Domestic            $ 25,212      $ 20,451
activities and operations of CCC for the fiscal             Program Expenses
                                                           * Includes loan storage and other program expenses.
year     ended     September     30,     2000.
Comparative information is presented to
show financial and program trends.
Activities featured in this section include
outlays,     receipts,   domestic     program
expenses, domestic loans, and commodity
inventory.




                                                                                                    Page 12
                                               COMMODITY CREDITY CORPORATION

                                               Management’s Discussion and Analysis
                                                      September 30, 2000


The dollar amount of new commodity loans                                     The current financial condition of CCC
made for the fiscal year ended September                                     reflects the general state of the U.S.
30, 2000, increased from the same period                                     agricultural economy.     America’s farmers
ending September 30, 1999, due to lower                                      have been hard hit by the effects of
market prices.       Loans made through                                      declining commodity prices and harsh
September 30 totaled $9,691 million in 2000                                  weather conditions. Consequently, CCC has
and $8,358 million in 1999.                                                  increased its assistance to farmers, helping
                                                                             to maintain farm income and tempering
                                                                             financial hardship for many producers.
                            New Loans Made                                   During fiscal year 2000, CCC experienced
                                                                             increased domestic program expenses, a
                   $4,000                                                    higher amount of commodity loans
                                                                             outstanding, and an increased amount of its
   (In Millions)




                   $3,000
                                                                             borrowing authority in use.
                   $2,000
                                                                             Limitations of the Financial Statements
                   $1,000

                       $-                                                    The financial statements report the financial
                              Feed Cotton    Soy-             Other
                              Grains 1/     beans
                                                      Rice
                                                               2/            position and results of operations of CCC
                       2000   $2,812 $2,440 $1,525    $698    $2,216         pursuant to the requirements of 31 U.S.C.
                       1999   $3,276 $1,314 $1,756    $674    $1,338         3515(b). They have been prepared from
                                                                             the books and records of CCC in accordance
                                       2000          1999                    with the formats prescribed by the Office of
1/ Includes extra long staple cotton,, upland cotton,,                       Management and Budget. The statements
upland seed cotton.                                                          are in addition to the financial reports used
2/ Includes wheat, tobacco, honey, sugar, peanuts,                           to monitor and control budgetary resources
oilseeds, and mohair.                                                        which are prepared from the same books
                                                                             and records. Furthermore, the statements
The Corporation’s commodity inventory
                                                                             should be read with the realization that they
increased over the past year because of
                                                                             are for a component of the U.S.
increased     purchases  of  dried  milk.
                                                                             Government, a sovereign entity.              One
Inventory as of September 30 totaled
                                                                             implication of this is that liabilities cannot be
$1,204 million in 2000, compared to $714
                                                                             liquidated without legislation that provides
million in 1999.
                                                                             resources to do so.
                      Commodity Inventory                                    MANAGEMENT CONTROLS
                          (In Millions)
     Commodity                          FY 2000              FY 1999         Federal Managers’ Financial Integrity Act of
 Dairy                                      $562                 $206        1982 (FMFIA)
 Wheat                                         399                     426
                                                                             The FMFIA promotes the development of
 Feed Grains                                     72                     42
                                                                             systematic and proactive measures to
 All Other*                                    171                      40   ensure management’s accountability for the
 Total Inventory                            $1,204                $714       effectiveness and efficiency of program
                                                                             operations.
*Includes rice products, rough rice, extra long staple
cotton, upland cotton, oils and oilseeds, peanut oil-
refined products, dry edible beans, blended foods, dry
whole peas, and vegetable oil products.




                                                                                                                 Page 13
                              COMMODITY CREDITY CORPORATION

                              Management’s Discussion and Analysis
                                     September 30, 2000


Section 2 of FMFIA, focuses on the                  requirements of Section 4. A material
assessment of the adequacy of management            financial        management          system
controls to manage the risk associated with         nonconformance      also    requires  major
a given program and to provide reasonable           milestones for corrective action.
assurance that obligations/costs comply with
applicable laws and regulations; that Federal
assets are safeguarded against fraud, waste                    FMFIA Noncompliance
and mismanagement; and that transactions                (Section 4, Material Nonconformances
are properly recorded and accounted for. A                       in Financial Systems)
material weakness identifies an instance in
which management controls are not                   Description        Credit Reform Financial
                                                    of Material        Management Systems –
sufficient to provide the level of assurance
                                                    Nonconformance:    Foreign Credit Subsidiary and
required by Section 2 and requires major                               Credit Reform Systems are
milestones for corrective action. Such a                               not Fully Automated and
weakness may significantly impair the                                  Integrated into CORE.
fulfillment of an agency component’s
mission; deprive the public of needed               Year Identified:   FY 2000
services; violate statutory or regulatory
requirements;         significantly    weaken       Planned            FY 2002
safeguards        against       waste,   loss,      Completion of
                                                    all Corrective
unauthorized use or misappropriation of
                                                    Actions Date:
funds, property, or other assets; or result in
a conflict of interest.
                                                    Federal Financial Management Improvement
                                                    Act of 1996 (FFMIA)
          FMFIA Noncompliance
             (Section 2, Material
                                                    FFMIA requires Federal agencies to
         Weakness in Internal Control)
                                                    implement      and      maintain     financial
                                                    management        systems    that      comply
Description of     Credit Reform Accounting and
Material           Subsidy Process – Concerns       substantially   with     Federal     financial
Weakness:          Over Accuracy and                management         systems     requirements,
                   Dependability of the Credit      applicable accounting standards, and the
                   Reform Accounting and            U. S. Standard General Ledger at the
                   Subsidy Re-estimate Process      transaction level. If an agency is not in
                   used by CCC Related to the       compliance with FFMIA, they shall prepare a
                   Direct and Foreign Credit        remediation plan to bring the agency’s
                   Guarantee Programs.              financial    management      systems      into
                                                    compliance.
Year Identified:   FY 2000

Planned            FY 2001                          CCC is pleased to report continued progress
Completion                                          in strengthening management controls. In
Date:                                               October 1999, CCC implemented its CORE
                                                    accounting system. With the exception of
Section 4 of FMFIA relates to the review of         Credit Reform accounting and certain
financial accounting systems to ensure              peanut     and   tobacco    activities, the
conformance      with  certain   principles,        implementation of CORE has brought the
standards, and other Federal requirements.          legacy CCC general ledger system into
A      financial    management      system          compliance with the federal financial
nonconformance is an instance in which the          management        systems     requirements,
financial systems do not conform to the             applicable Federal accounting standards,



                                                                                       Page 14
                             COMMODITY CREDITY CORPORATION

                             Management’s Discussion and Analysis
                                    September 30, 2000


and the Standard General Ledger at the             directly to managers, analysts and other end
transaction level. CCC is working with the         users for decision making.
USDA Chief Financial Officer to fully
integrate CORE into the Department’s               Although CCC continues to make progress in
Foundation Financial Information System.           strengthening management controls, CCC
CCC is also working to develop the CORE            has developed a remediation plan to bring
Data Warehouse as the reporting solution to        CCC’s credit reform accounting and subsidy
meet the reporting needs of program                re-estimate process in compliance with
managers. This system will extract financial       FFMIA, as shown below.
information from multiple systems, integrate
and organize the data for reporting and
analysis, and make the data available



                                   CCC Remediation Plan
                                    (September 30, 2000)


Remediation Action #1

Description:                  Ensure substantial compliance with applicable Joint Financial
                              Management Improvement Program systems requirements,
                              particularly those pertaining to the capture of information for
                              preparing financial statements.

                              To accomplish this, CCC has developed a plan to review all CCC
                              financial systems.

Year Identified:              FY 2000

Date of Plan Development:     FY 2000

Date for Completion of all
Financial Functions:          FY 2004


Remediation Action #2

Description:                  Prepare financial statements in accordance with applicable Credit
                              Reform accounting standards, for foreign programs.

Date of Plan Development:     FY 2000

Year Identified:              FY 2000

Date for Completion of all
Financial Functions:          FY 2001




                                                                                     Page 15
       Exhibit A

       Commodity Credit Corporation
       Balance Sheet

       As of September 30, 2000
       (Dollars in Millions)


         Federal Assets:
            Fund Balance with Treasury (Note 2)                    $     2,764
            Accounts Receivable (Note 3)                                    76
         Total Federal Assets                                            2,840


         Accounts Receivable, Net (Note 3)                                116
         Commodity Loans, Net (Note 4)                                   3,049
         Credit Program Receivables, Net (Note 5)                        7,455
         Other Foreign Receivables, Net (Note 6)                           330
         Advances                                                           19
         Cash (Note 7)                                                      65
         Commodity Inventories, Net (Note 8)                               502
         Property and Equipment, Net (Note 9)                               16

         Total Assets                                              $    14,392


         Federal Liabilities:
            Accounts Payable                                       $       701
            Resources Payable to Treasury (Note 10)                      5,997
            U.S. Treasury Borrowings (Note 11)                          24,878
            Accrued Liabilities (Note 12)                                    4
            Deposit and Trust Liabilities (Note 13)                        527
            Excess Subsidy Payable (Note 14)                               203
         Total Federal Liabilities                                     32,310

         Accounts Payable                                                   24
         Accrued Liabilities (Note 12)                                   2,870
         Estimated Loss on Credit Guarantees (Note 5)                       92
         Deposit and Trust Liabilities (Note 13)                           669
         Other Liabilities (Note 15)                                         7

         Total Liabilities                                         $    35,972
         Contingencies and Commitments (Note 16)
         Net Position
         Unexpended Appropriations (Note 17)                       $      1,821
         Capital Stock                                                      100
         Cumulative Results of Operations                              (23,501)
         Total Net Position                                            (21,580)
         Total Liabilities and Net Position                        $    14,392

The accompanying notes are an integral part of these statements.
Exhibit B

Commodity Credit Corporation
Statement of Changes in Net Position

As of September 30, 2000
(Dollars in Millions)

                                                                Income        Conservation                                    Reimbursement
                                                 Commodity      Support         Reserve           Foreign                      for Prior Year   Intra-Agency    Consolidated
                                                 Operations    Programs         Program          Programs       Other              Losses        Eliminations      Total

Net Cost of Operations                           $   (1,355)   $ (23,495)      $   (1,821)   $       (1,240)    $   (2,873)                 $               $   $    (30,784)
Financing Sources:
  Appropriations Used                                                                   20            1,597             428            38,737                          40,782
  Other Nonexchange Revenue                                             11                                                                                                 11
  Imputed Financing                                      24            447              63                  8           152                                               694
  Transfers In                                                                                                                                                              0
  Transfers Out                                                                                                     (1,135)                                           (1,135)
Net Results of Operations                            (1,331)       (23,037)        (1,738)             365          (3,428)            38,737               0           9,568

Net Results Not Affecting Net Position                                                                (665)                                                            (665)
Prior Period Adjustments (Note 19)                                                                    3,262                                                            3,262
Net Change in Cumulative Results of Operations       (1,331)       (23,037)        (1,738)            2,962         (3,428)            38,737               0         12,165

Increase (Decrease) in
  Unexpended Appropriations                                                           (20)            (419)               4                                            (435)
Change in Net Position                               (1,331)       (23,037)        (1,758)            2,543         (3,424)            38,737               0         11,730

Net Position - Beginning of Fiscal Year              (1,598)       (24,622)        (3,142)               99         (3,820)             (227)                        (33,310)
Net Position - End of Fiscal Year                $   (2,929)   $   (47,659)   $    (4,900)       $    2,642     $   (7,244)       $    38,510     $         0   $    (21,580)




The accompanying notes are an integral part of these statements.
Exhibit C

Commodity Credit Corporation
Consolidating Statement of Net Costs

As of September 30, 2000
(Dollars in Millions)


                                                               Income       Conservation
                                               Commodity      Support         Reserve       Foreign                  Combined      Intra-Agency   Consolidated
                                               Operations     Programs        Program      Programs        Other       Total       Eliminations      Total

  Net Program Costs:

    Federal                                     $      715    $      991     $       153   $    434    $       284   $    2,577     $     (656)    $     1,921
    Non-Federal:
          Grants and Payments
              Grants and Payments                                  20,900          1,668        991          2,420       25,979                         25,979
              Credit Program Subsidy                                                            592                        592                            592
          Commodity Program Costs                    1,621                                                                1,621                          1,621
          Other Program Costs                          344          1,754                        216            87        2,401                          2,401
    Total Program Production Costs                   2,680         23,645          1,821       2,233         2,791       33,170           (656)         32,514

    Less Earned Revenue (Note 20)                   (1,325)         (150)                      (993)          (30)       (2,498)           656          (1,842)

    Excess Costs over Revenues                       1,355         23,495          1,821       1,240         2,761       30,672              0          30,672

    Nonproduction and Nonrecurring Items:
                                                                                                               113          113                            113
        Acquisition Cost of Stewardship Land
        (Gain)/Loss on Disposition of Assets                                                                   (1)           (1)                            (1)

  Net Cost of Operations                        $    1,355    $    23,495    $     1,821   $   1,240   $     2,873    $ 30,784      $         0     $   30,784




The accompanying notes are an integral part of these statements.
Exhibit D

Commodity Credit Corporation
Combining Statement of Budgetary Resources (Note 21)

As of September 30, 2000
(Dollars in Millions)

                                                                                        Export
                                                        Revolving       P.L. 480        Credit         FSA                           Combined
                                                          Fund         Programs       Guarantees    Programs          Other             Total

  Budgetary Resources:

    Budget Authority                                    $     83,953    $      987    $       213    $    209     $           104    $     85,466
    Unobligated Balances – Beginning of Fiscal Year              534         1,290          1,840          85                  49           3,798
    Spending Authority from Offsetting Collections             9,829         1,033            636                              25          11,523
    Adjustments                                             (54,556)         (480)          (292)           4                   4        (55,320)
    Total Budgetary Resources                           $     39,760    $    2,830     $    2,397    $    298     $           182    $     45,467

  Status of Budgetary Resources:

    Obligations Incurred                                $     38,736    $    2,018    $       293   $     215     $           124    $    41,386
    Unobligated Balances - Available                           1,024           669          1,874          68                  13          3,648
    Unobligated Balances - Not Available                                       143            230          15                  45            433
    Total Status of Budgetary Resources                 $     39,760    $    2,830     $    2,397   $     298     $           182    $    45,467

  Outlays:

    Obligations Incurred                                $     38,736    $    2,018    $      293    $     215     $           124    $    41,386
    Less: Spending Authority from Offsetting
     Collections and Adjustments                             (9,829)        (1,102)         (636)           (5)               (29)       (11,601)
    Obligated Balance, Net - Beginning of Fiscal Year          5,937            720                          45                 73          6,775
    Obligated Balance Transferred, Net                                                                       16                                16
    Less: Obligated Balance, Net - End of Fiscal Year        (2,938)         (813)           (45)         (38)            (106)           (3,940)
    Total Outlays                                       $     31,906    $      823    $     (388)   $      233    $          62      $     32,636




The accompanying notes are an integral part of these statements.
Exhibit E

Commodity Credit Corporation
Combining Statement of Financing

As of September 30, 2000
(Dollars in Millions)

                                                                                                                      Export
                                                                                       Revolving      P.L. 480        Credit         FSA                     Combined
                                                                                          Fund       Programs       Guarantees    Programs    Other             Total

 Resources Used to Finance Operations:
  Budgetary:
    Budgetary Resources Obligated for Items to be Received or Provided to Others        $ 38,736      $    2,018      $    293    $    215    $       124    $    41,386
    Less: Offsetting Collections, Recoveries of Prior-Year Authority, and Changes in
          Unfilled Customer Orders                                                        (9,829)         (1,102)         (636)         (5)           (29)       (11,601)
    Net Budgetary Resources Used to Finance Operations                                     28,907             916         (343)        210              95         29,785
  Non-budgetary:
    Cost Incurred by Others Without Reimbursement                                             688              5                                                      693
    Other Non-budgetary Resources (Note 22)                                                    11                                                                      11
    Net Non-budgetary Resources Used to Finance Operations                                    699              5             0           0              0             704


  Total Resources Used to Finance Operations                                              29,606             921          (343)        210             95         30,489

 Resources Used to Fund Items Not Part of the Net Cost of Operations:
  Increase or (Decrease) in Budgetary Resources Obligated to Order Goods or
        Services Not Yet Received or Benefits Not Yet Provided                              (406)            (92)          151          12            (41)          (376)
  Budgetary Offsetting Collections Not Increasing Earned Revenue or
         Decreasing Expense                                                                 7,122            631            48                          2           7,803
  Less: Adjustments Made to Compute Net Budgetary Resources Not Affecting
         Net Cost of Operations                                                               557           (17)                          4             4             548
  Resources Funding Expenses Recognized in Prior Periods                                  (1,476)                                       (8)                       (1,484)
  Resources Financing the Acquisition of Assets or Liquidation of Liabilities            (11,893)          (398)          (146)                       (10)       (12,447)
  Other Resources Used to Fund Items Not Part of the Net Cost of Operations                    (2)                                                                     (2)

  Total Resources Used to Fund Items Not Part of the Net Cost of Operations               (6,098)            124            53           8            (45)        (5,958)

 Resources Used to Finance Net Cost of Operations                                         23,508           1,045          (290)        218             50         24,531




                                                                                                                                                  Continued on next page
Exhibit E

Commodity Credit Corporation
Combining Statement of Financing, Continued

As of September 30, 2000
(Dollars in Millions)



                                                                                                                  Export
                                                                                      Revolving     P.L. 480      Credit        FSA                      Combined
                                                                                         Fund      Programs     Guarantees   Programs       Other           Total

  Components of Net Cost of Operations Not Requiring or Generating Resources
   During the Reporting Period:
   Expenses or Earned Revenue Related to the Disposition of Assets or Liabilities,
     or Allocation of Their Cost Over Time                                                 4,250         231          (39)                                    4,442
   Expenses Which Will Be Financed With Budgetary Resources Recognized in
     Future Periods                                                                        1,670         128           325                                    2,123
   Other Net Cost Components Not Requiring or Generating Resources During the
     Reporting Period (Note 22)                                                                                      (312)                                    (312)

   Total Components of Net Cost of Operations Not Requiring or Generating Resources
     During the Reporting Period                                                           5,920         359          (26)          0                0        6,253

  Net Cost of Operations                                                              $   29,428    $   1,404    $   (316)   $    218   $           50   $   30,784




The accompanying notes are an integral part of these statements.
Schedule A

Commodity Credit Corporation
Supporting Schedule to the Statement of Net Costs

As of September 30, 2000
(Dollars in Millions)

                                                                Farm
                                                              Income      Production    Conservation                  Export       Other    Emergency       Other
                                               Commodity      Support     Flexibility     Reserve       P.L. 480      Credit      Foreign   Assistance   Conservation    Unallocated   Combined
                                               Operations     Program     Contracts       Program      Programs     Guarantees   Programs    Programs     Programs        Expenses       Total

 Net Program Costs:

    Federal                                     $      715    $    683    $      308    $       153     $    106     $     308   $     20   $      149        $    97     $      38     $ 2,577
    Non-Federal:
        Grants and Payments
           Grants and Payments                                 15,840          5,060          1,668          886                      105        2,004            337            79      25,979
           Credit Program Subsidy                                                                            594          (16)         14                                                   592
        Commodity Program Costs                      1,621                                                                                                                                1,621
        Other Program Costs                            344      1,754                                         214         (44)         46                          (9)           96       2,401
    Total Program Production Costs                   2,680     18,277          5,368          1,821         1,800          248        185        2,153            425           213      33,170

    Less Earned Revenue                             (1,325)       (150)                                     (396)        (564)       (33)                                       (30)     (2,498)

    Excess Costs over Revenues                       1,355     18,127          5,368          1,821         1,404        (316)        152        2,153            425           183      30,672

    Nonproduction and Nonrecurring Items:
        Acquisition Cost of Stewardship Land                                                                                                                      113                       113
        (Gain)/Loss on Disposition of Assets                                                                                                                                     (1)         (1)

 Net Cost of Operations                         $    1,355    $ 18,127    $    5,368    $     1,821     $ 1,404     $    (316)   $    152   $    2,153    $       538      $    182    $ 30,784




The accompanying notes are an integral part of these statements.
Schedule B

Commodity Credit Corporation
Change in Inventory, by Commodity

For Fiscal Year 2000
(In Thousands)


                                         Beginning Inventory                                                                                                      Other                   Other Additions/           Ending Inventory
                                           October 1, 1999               Acquisitions                Cost of Sales a/                Donations                Dispositions b/           (Deductions), Net c/        September 30, 2000
                             Unit of
      Commodity             Measure    Quantity         Value      Quantity               Value   Quantity              Value   Quantity           Value   Quantity             Value   Quantity          Value    Quantity         Value

Feed Grains:
 Barley                      Bushel        861    $     1,519         3,519    $          5,536     3,973    $       6,252                 $                          $                             $                  407    $       802
 Corn                        Bushel     14,963         39,554       103,311             202,201    85,255          169,588        1,222            3,025         1          (1,386)       (1,040)         (694)     30,757         69,834
 Corn Products               Pound                                  120,624              11,583    67,527            6,245       50,595            5,072       112              15                                   2,391            251
 Oats                        Bushel        243            266           296                 324       509              550                                                                                              30             41
 Oats, Rolled                Pound
 Rye                         Bushel
 Sorghum                     Cwt.          544            961         5,363              10,166     5,590           10,585                                                       (80)                                  317               622
 Sorghum Grits               Pound                                   25,183               2,987    25,054            2,975                                     128                12

  Total Feed Grains                         xxx        42,299            xxx            232,796        xxx         196,194           xxx           8,097        xxx         (1,439)          xxx          (694)         xxx        71,550

Wheat                        Bushel    118,832        425,695        142,887            431,479    77,726          228,718       60,369          197,945          z         (6,506)      (16,405)       (37,616)   107,220        399,400
Wheat Flour                  Pound                                 1,063,356             71,105   364,135           30,316      696,279           40,567       235               1                                   2,706            221
Wheat Products, Other        Pound                                    22,191              3,791    21,860            3,733          329               59         2                z

Rice Products:
 Rice, Rough                 Cwt.           15             97        30,301             196,481    30,307          196,513                                                                                               9               65
 Rice, Brown                 Pound                                   16,409               2,192                                  16,409            2,220          z              (28)
 Rice, Milled                Cwt.          262          3,336         4,048              44,898     2,936           34,555        1,374           13,671          z                4                                      z               4

Cotton, E. L. S.             Bale            3          1,191            81              33,612        81           33,251                                                                                               4          1,552
Cotton, Upland               Bale            9          2,190         1,037             259,123     1,043          260,591             z              8                                                                  2            714

Dairy Products:
 Butter                      Pound
 Butter Oil                  Pound
 Cheese                      Cwt.                                     6,814               7,822       861            1,016        4,175            4,790        24                32                                 1,754          1,984
 Milk, Dried                 Cwt.      203,196        206,418       458,000             463,252    43,947           44,689       81,213           70,686       748               949        373           6,826    535,661        560,172
 Milk, UHT                   Pound
 Milk, Corn Soya             Cwt.                                     1,213                349                                    1,213             349

  Total Dairy Products                      xxx       206,418            xxx            471,423        xxx          45,704           xxx          75,826        xxx              981         xxx          6,826         xxx       562,156

Oils and Oilseeds:
 Peanuts                     Pound                                       44                 13         44                 13
 Peanut Butter               Pound
 Peanut Products             Pound
 Soybeans                    Bushel      4,823         25,149        20,893             110,107    16,480           86,951                                        z              (76)                                9,237         48,381
 Soybean Salad Oil           Cwt.                                   193,990              32,572   187,379           31,385        6,613            1,186        (2)                 z
 Soybean Meal                Cwt.                                   133,353              11,158    57,294            5,082       76,059            6,076
 Buckwheat Groats            Cwt.                                     2,931               1,446     2,931            1,446
 Flaxseed                    Cwt.            7             62           171               1,573       174            1,600                                                                                               3               35
 Mustard Seed                Cwt                                          2                  15         2               15
 Crambe Oilseed              Cwt                                        128               1,089       128            1,089
 Safflower Seed              Cwt                                          1                   7         1                7
 Canola Seed                 Cwt             1                 5        571               5,475       570            5,473                                                                                               1                7
 Field Seeds                 Pound                                   40,226              23,631                                  40,226           23,631
 Vegetable Seeds             Pound                                    5,892               4,707                                   5,892            4,707
 Sunflower Seed              Cwt.            8             72           438               4,011       440               4,032                                                                                            5               51
 Sunflower Seed Oil          Cwt.                                     3,305                 575     3,305                 575
 Sunflower Seed, Non-Oil     Cwt.                                         2                  16         2                  16

  Total Oils and Oilseeds                   xxx        25,288            xxx            196,395        xxx         137,685           xxx          35,600        xxx              (76)        xxx               0        xxx        48,474
Schedule B

Commodity Credit Corporation
Change in Inventory, by Commodity

For Fiscal Year 2000
(In Thousands)


                                            Beginning Inventory                                                                                                                         Other                    Other Additions/              Ending Inventory
                                              October 1, 1999                   Acquisitions                   Cost of Sales a/                     Donations                       Dispositions b/            (Deductions), Net c/           September 30, 2000
                             Unit of
      Commodity             Measure      Quantity              Value      Quantity               Value      Quantity              Value      Quantity               Value      Quantity               Value   Quantity              Value    Quantity           Value


Beans, Dry Edible            Cwt.             227     $        5,862           984     $        20,858         1,028     $       22,047            91     $         2,401              3    $           10                 $                      88    $      2,263
Blended Foods                Cwt.           5,719                628       669,582              78,762       663,014             78,040           331                  41            727                78                                    11,228           1,231
Bulgur                       Cwt.                                          349,992              24,824       299,269             22,889        50,942               1,931           (218)                4
Honey                        Pound
Fish, Canned Salmon          Pound                                           2,102               2,203         2,028              2,111             74                 92
Tallow                       Pound
Peas, Dry Whole              Cwt.             617                 66        95,235               9,984        94,379              9,888           551                 91             145                  z                                      777                71
Lentils                      Cwt.           2,093                337        63,451              10,561        63,084             10,660           551                131                                                                       1,910               107
Pork Bellies                 Pound                                          15,316              11,891        15,316             11,891
Poultry, Frozen Chicken      Pound
Egg Mix, Dry                 Pound
Baby Food, Glass Jar         Pound
Nutritional Powdered Bev.    Pound
Sugar, Raw Cane              Pound                                          95,546              17,055                                                                                                                                        95,546          17,055
Sugar, Refined Beet          Pound                                         439,500              94,025                                                                                                                                       439,500          94,025
Sugar, Refined Cane          Pound                                          21,000               4,227                                                                                                                                        21,000           4,227
Meat                         Pound                                          93,940              75,881        93,940             75,881
Plants & Seeds               Pound
Dry Vegetable Burger Mix     Pound
Emergency Food Ration        Cwt.
Feed for Gov't Facilities    Cwt.
Vegetable Oil Products       Cwt.           2,380                776       386,630             130,730       336,419            113,521        50,912             17,365             400                34                                     1,279               587

Subtotal                                       xxx           714,184             xxx        2,425,046             xxx         1,514,189             xxx          396,045              xxx         (6,938)            xxx          (31,484)        xxx       1,203,700

Elimination of Sales to
 P.L. 480 Program                                                                            (656,440)                         (656,440)

Total Inventory Operations                     xxx    $      714,184             xxx   $    1,767,857             xxx    $      857,749             xxx   $      396,045              xxx   $     (6,938)            xxx   $      (31,484)        xxx   $   1,203,700

NOTE: Inventories of commodities as shown in this schedule include commodities committed to sale or otherwise obligated.

z Less than 500.

Table may not add due to rounding.

a/ Includes commodities subsequently exported and financed under P.L. 480.

b/ Includes inventory quantity gains under the Export Program, and the losses incurred for conversion, insured casualties and transit, and shrinkage and spoilage of commodities.

c/ Includes the net of over-deliveries, premiums, under-deliveries and discounts resulting from warehousing operations; the net change in value and quantity of inventory exchanged or in process of exchange; processing and packaging
    costs and related quantitative gains and losses in processing operations and items which are footnoted individually.
Required Supplementary Information

Commodity Credit Corporation
Supporting Schedule to the Combining Statement of Budgetary Resources
Revolving Funds

As of September 30, 2000
(Dollars in Millions)




                                                          12X4336         1284336       1294336           1204336          Total

 Budgetary Resources:

  Budget Authority                                    $      83,754             $             $   $           199    $     83,953
  Unobligated Balances - Beginning of Fiscal Year               534                                                           534
  Spending Authority from Offsetting Collections              9,829                                                         9,829
  Adjustments                                              (54,556)                                                      (54,556)
  Total Budgetary Resources                           $      39,561   $         0   $         0   $           199    $     39,760


 Status of Budgetary Resources:

  Obligations Incurred                                $     38,537              $             $   $           199    $    38,736
  Unobligated Balances – Available                           1,024                                                         1,024
  Total Status of Budgetary Resources                 $     39,561    $         0   $         0   $           199    $    39,760

 Outlays:

  Obligations Incurred
                                                      $     38,537              $             $       $       199    $    38,736
  Less: Spending Authority from Offsetting
        Collections and Adjustments
                                                            (9,829)                                                       (9,829)
  Obligated Balance, Net – Beginning of Fiscal Year
                                                              5,933                           4                             5,937
  Less: Obligated Balance, Net - End of Fiscal Year
                                                            (2,742)                         (1)              (195)        (2,938)
  Total Outlays
                                                      $      31,899   $         0   $         3   $              4   $     31,906
Required Supplementary Information

Commodity Credit Corporation
Supporting Schedule to the Combining Statement of Budgetary Resources
P.L. 480 Programs

As of September 30, 2000
(Dollars in Millions)

                                                      12X4049      12X4078     12X4143    12X2273   12X2274     12X2277     12X2278    Total
 Budgetary Resources:

  Budget Authority                                     $      26           $   $    14    $   (4)           $   $     91     $   860   $   987
  Unobligated Balances - Beginning of Fiscal Year            401          27         1          4          74        568         215     1,290
  Spending Authority from Offsetting Collections             491        (11)        22                    510                     21     1,033
  Adjustments                                               (54)         (4)                            (489)         (2)         69     (480)
  Total Budgetary Resources                           $      864    $     12   $    37    $     0   $      95   $    657     $ 1,165   $ 2,830

 Status of Budgetary Resources:

  Obligations Incurred                                $     593     $    12    $    28          $          $    $    398     $   987   $ 2,018
  Unobligated Balances - Available                          255                      2                    10         259         143       669
  Unobligated Balances - Not Available                       16                      7                    85                      35       143
  Total Status of Budgetary Resources                 $     864     $    12    $    37    $     0   $     95    $    657     $ 1,165   $ 2,830

 Outlays:

  Obligations Incurred                                $     593     $    12    $    28          $          $    $    398     $   987   $ 2,018
  Less: Spending Authority from Offsetting
      Collections and Adjustments                          (491)          11       (22)                 (510)                   (90)     (1,102)
  Obligated Balance, Net - Beginning of Fiscal Year         (67)        (28)                                          106        709         720
  Less: Obligated Balance, Net - End of Fiscal Year           18                   (26)                    18       (210)      (613)       (813)
  Total Outlays                                       $       53   $     (5)   $   (20)   $     0   $   (492)   $     294    $   993   $     823
Required Supplementary Information

Commodity Credit Corporation
Supporting Schedule to the Combining Statement of Budgetary Resources
Export Credit Guarantees

As of September 30, 2000
(Dollars in Millions)




                                                         12X1336        12X4337          12X4338           Total

 Budgetary Resources:

  Budget Authority                                        $     213                  $             $   $      213
  Unobligated Balances - Beginning of Fiscal Year               330             1,477             33        1,840
  Spending Authority from Offsetting Collections                                  384           252           636
  Adjustments                                                                                 (292)         (292)
  Total Budgetary Resources                               $     543         $   1,861    $       (7)   $    2,397


 Status of Budgetary Resources:

  Obligations Incurred                                   $       82      $        208    $        3    $      293
  Unobligated Balances - Available                              351             1,522             1         1,874
  Unobligated Balances - Not Available                          110               131          (11)           230
  Total Status of Budgetary Resources                     $     543         $   1,861    $      (7)    $    2,397


 Outlays:

  Obligations Incurred                                    $        82    $        208    $         3   $      293
  Less: Spending Authority from Offsetting
   Collections and Adjustments                                                  (384)         (252)         (636)
  Obligated Balance, Net - Beginning of Fiscal Year              204            (204)                           0
  Less: Obligated Balance, Net - End of Fiscal Year             (81)               28             8          (45)
  Total Outlays                                           $      205    $       (352)    $    (241)    $    (388)
Required Supplementary Information

Commodity Credit Corporation
Supporting Schedule to the Combining Statement of Budgetary Resources
FSA Programs

As of September 30, 2000
(Dollars in Millions)

                                                     12X3314(36)    12X3316(36)    123/43316(36)   124/53316(36)   12X3337(36)       1272701(36)    1282701(36)

Budgetary Resources:

 Budget Authority                                    $         1    $         60     $                  $          $                 $              $
 Unobligated Balances - Beginning of Fiscal Year                              73                                                 3             4
 Spending Authority from Offsetting Collections
 Adjustments                                         ____________
 Total Budgetary Resources                           $          1   $        133    $          0    $          0   $             3    $        4    $         0

Status of Budgetary Resources:

 Obligations Incurred                                          $    $         66     $              $              $                           $    $
 Unobligated Balances-Available                                1              67
 Unobligated Balances-Not Available                                                                                              3             4
 Total Status of Budgetary Resources                 $         1    $        133    $          0    $          0   $             3    $        4        $     0

Outlays:

 Obligations Incurred                                $              $         66     $              $              $                           $    $
 Less: Spending Authority from Offsetting
   Collections and Adjustments                                                                                                                (1)
 Obligated Balance, Net - Beginning of Fiscal Year                            24                                                                1             5
 Obligated Balance Transferred, Net
 Less: Obligated Balance, Net - End of Fiscal Year                          (25)                                                              (1)            (4)
 Total Outlays                                       $         0    $         65    $          0    $          0   $             0   $        (1)   $          1




                                                                                                                                          Continued on next page
Required Supplementary Information

Commodity Credit Corporation
Supporting Schedule to the Combining Statement of Budgetary Resources
FSA Programs, Continued

As of September 30, 2000
(Dollars in Millions)

                                                   1292701(36)   12-3300(36)   12-0600(36)            Total

Budgetary Resources:

 Budget Authority                                    $           $              $      148        $           209
 Unobligated Balances - Beginning of Fiscal Year             1                           4                     85
 Spending Authority from Offsetting Collections                                                                 0
 Adjustments                                                                             4                      4
 Total Budgetary Resources                           $       1   $         0    $      156        $           298

Status of Budgetary Resources:

 Obligations Incurred                                $       1   $              $      148        $           215
 Unobligated Balances-Available                                                                                68
 Unobligated Balances-Not Available                                                      8                     15
 Total Status of Budgetary Resources                 $       1   $         0    $      156        $           298

Outlays:

 Obligations Incurred                                $       1   $              $      148        $           215
 Less: Spending Authority from Offsetting
   Collections and Adjustments                                                          (4)                     (5)
 Obligated Balance, Net-Beginning of Fiscal Year             2                           13                      45
 Obligated Balance Transferred, Net                                                      16                      16
 Less: Obligated Balance, Net-End of Fiscal Year           (2)                          (6)                   (38)
 Total Outlays                                       $       1   $         0    $      167    $                233
Required Supplementary Information

Commodity Credit Corporation
Supporting Schedule to the Combining Statement of Budgetary Resources
Other Programs

As of September 30, 2000
(Dollars in Millions)




                                                      12X4158           12X3301         12X0500         12X3318         12X2268          12X1080


 Budgetary Resources:

  Budget Authority                                    $         77      $         10         $     3                    $                  $
  Unobligated Balances - Beginning of Fiscal Year                                                                  1              3                3
  Spending Authority from Offsetting Collections                25
  Adjustments
  Total Budgetary Resources                           $       102       $         10      $        3     $         1        $      3       $        3

 Status of Budgetary Resources:

  Obligations Incurred                                $       102       $          2     $         3               $               $       $        3
  Unobligated Balances – Available                                                 8                               1               3
  Unobligated Balances - Not Available
  Total Status of Budgetary Resources                     $      102    $         10     $         3     $         1        $      3       $        3

 Outlays:

  Obligations Incurred                                $       102       $          2      $        3               $               $       $        3
  Less: Spending Authority from Offsetting
   Collections and Adjustments                                   (25)
  Obligated Balance, Net - Beginning of Fiscal Year                                                 2               3               8              15
  Less: Obligated Balance, Net - End of Fiscal Year              (67)             (2)             (3)             (1)             (5)            (11)
  Total Outlays                                           $        10       $       0     $         2    $          2       $       3      $        7




                                                                                                                                Continued on Next Page
Required Supplementary Information

Commodity Credit Corporation
Supporting Schedule to the Combining Statement of Budgetary Resources
Other Programs, Continued

As of September 30, 2000
(Dollars in Millions)




                                                      12X3315          12X3319        110091        Total


 Budgetary Resources:

  Budget Authority                                                $               $    $       14   $        104
  Unobligated Balances - Beginning of Fiscal Year                41               1                            49
  Spending Authority from Offsetting Collections                                                              25
  Adjustments                                                     4                                            4
  Total Budgetary Resources                            $         45     $         1    $       14   $        182

 Status of Budgetary Resources:

  Obligations Incurred                                            $               $     $      14    $       124
  Unobligated Balances - Available                                                1                           13
  Unobligated Balances - Not Available                           45                                           45
  Total Status of Budgetary Resources                  $         45      $        1     $      14    $       182

 Outlays:

  Obligations Incurred                                            $               $     $      14   $        124
  Less: Spending Authority from Offsetting
   Collections and Adjustments                                   (4)                                         (29)
  Obligated Balance, Net - Beginning of Fiscal Year               25             20                            73
  Less: Obligated Balance, Net - End of Fiscal Year             (17)                                        (106)
  Total Outlays                                        $           4     $       20    $       14    $         62
Required Supplementary Information

Intra-governmental Amounts

The intra-governmental amounts represent the assets, liabilities, non-exchange and earned revenues
between CCC and other Federal departments. Amounts as of September 30, 2000, are as follows:

Intra-governmental Assets:
                                                                                                        (In Millions)

                                                                                           Fund Balance                     Accounts
                                 Department                                                With Treasury                   Receivable
    Treasury                                                                                    $   2,764                     $      48
    Transportation                                                                                       --                          15
    Other Agriculture Agencies                                                                           --                           *
    Other                                                                                                --                          13

    Total                                                                                      $       2,764                  $         76

*      Less than $500 thousand


Intra-governmental Liabilities:
                                                                       (In Millions)

                                               Resources                                                Deposit and             Excess
                                 Accounts      Payable to     U.S. Treasury        Accrued                 Trust               Subsidy
            Department            Payable       Treasury       Borrowings         Liabilities            Liabilities           Payable
    Treasury                     $      232     $    5,997       $ 24,878            $        --          $        (2)          $    203
    U.S. Agency for Int’l Dev.          465              --               --                  --                     --                --
    Energy                                --             --               --                  *                      --                --
    Other Agriculture Agencies            4              --               --                  4                   529                  --
    Other                                 *              --               --                  --                     *                 --

    Total                        $      701    $     5,997      $    24,878            $           4       $      527              $    203

*     Less than $500 thousand



Intra-governmental Non-Exchange Revenue:
                                                                                                                             (In Millions)

           Department                                                                                                       Transfers Out
    Treasury                                                                                                                  $         *
    U.S. Agency for Int’l Dev.                                                                                                        514
    Other Agriculture Agencies                                                                                                        621

    Total                                                                                                                      $       1,135

*     Less than $500 thousand


Intra-governmental Earned Revenue:
                                                                                                                             (In Millions)

           Department                                                                                                     Earned Revenue
    Treasury                                                                                                                   $     282
    Transportation                                                                                                                    21
    Other                                                                                                                              *

    Total                                                                                                                     $         303

*     Less than $500 thousand
Required Supplementary Stewardship Information

Wetlands Reserve Program

The Wetlands Reserve Program (WRP), administered by NRCS and funded by CCC, is a voluntary
program established to restore, protect, and enhance wetlands on agricultural land. Participants in the
program may sell a conservation easement or enter into a cost-share restoration agreement with USDA in
order to restore and protect wetlands. The landowner voluntarily limits the future use of the land, yet
retains private ownership. The program provides many benefits for the entire community, such as better
water quality, enhanced habitat for wildlife, reduced soil erosion, reduced flooding, and better water
supply.

To be eligible for WRP, land must be restorable and be suitable for wildlife benefits. Once land is
enrolled in the program, the landowner continues to control access to the land -- and may lease the land
-- for hunting, fishing, and other undeveloped recreational activities. Once enrolled, the land is
monitored to ensure compliance with contract requirements. At any time, a landowner may request that
additional activities (such as cutting hay, grazing livestock, or harvesting wood products) be evaluated to
determine if they are compatible uses for the site. Compatible uses are allowed if they are fully
consistent with the protection and enhancement of the wetland. The condition of the land is immaterial
as long as the easement on the land meets the eligibility requirements of the program.

Easements purchased under this program meet the definition of stewardship land. CCC records an
expense for the acquisition cost of purchasing easements plus any additional costs such as closing,
survey, and restoration costs. Easements can be either permanent or 30-year duration. In exchange for
establishing a permanent easement, the landowner receives payment up to the agricultural value of the
land and 100 percent of the restoration costs for restoring the wetlands. The 30-year easement payment
is 75 percent of what would be provided for a permanent easement on the same site and 75 percent of
the restoration cost.

Withdrawals from the program are rare. The Secretary of Agriculture has the authority to terminate
contracts, with agreement from the landowner, after an assessment of the effect on public interest, and
following a 90-day notification period of the House and Senate agriculture committees.

The change in acres covered by these easements for the fiscal year ended September 30, 2000, is as
follows:

Acres Purchased, as of September 30, 1999                                 363,840
Additions                                                                 149,915
Withdrawals                                                                     0
Acres Purchased, as of September 30, 2000                                 513,755
                                   COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000

Note 1 - Significant Accounting Policies

These financial statements have been prepared           Marketing Service (AMS), the Natural Resources
to report the financial position and results of         Conservation Service (NRCS), the Foreign
operations of the Commodity Credit Corporation          Agricultural Service (FAS), and the U.S. Agency
(CCC). CCC's financial statements are presented         for    International    Development.        The
in accordance with the Office of Management             accompanying financial statements include an
and Budget (OMB) Bulletin 97-01 (as amended),           allocation, as appropriate, of salaries and
Form and Content of Agency Financial                    expenses incurred by these agencies.
Statements.
                                                        Basis of Accounting
Reporting Entity                                        The accounting principles and standards applied
CCC is a Federal corporation operating within           in preparing the financial statements and
and through the United States Department of             described in this note are in accordance with
Agriculture (USDA). It was established to:              generally accepted accounting principles (GAAP)
• stabilize, support, and protect farm income           for Federal entities.
    and prices;
• assist in the maintenance of balanced and             Transactions are recorded on an accrual basis of
    adequate     supplies      of     agricultural      accounting.     Under the accrual method,
    commodities; and                                    revenues are recognized when earned and
• facilitate the orderly distribution of those          expenses are recognized when a liability is
    commodities.                                        incurred, without regard to receipt or payment
                                                        of cash. All proprietary interfund balances and
CCC’s statutory authority for its operations is         transactions have been eliminated. Budgetary
found in the CCC Charter Act, 15 U.S.C. 714, et         balances are presented on a combined basis,
seq. It is managed by a Board of Directors,             rather than consolidated.
subject to the general supervision and direction
of the Secretary of Agriculture, who is an ex-          Fund Balance with Treasury
officio director and chairperson of the Board.          Most CCC disbursements are made by either
The members of the Board and the                        checks or electronic payments drawn against its
Corporation's Officers are officials of USDA.           account at Treasury. Generally, disbursements
                                                        and receipts for which CCC is responsible are
CCC     operations    are    financed    through        processed by the Federal Reserve Banks (FRB),
appropriated and revolving funds, as well as an         their branches, and the U.S. Treasury, which
authority to borrow from the U.S. Treasury. The         report activity to the Corporation.
U.S. Treasury also holds capital stock in the
amount of $100 million, on which the                    Commodity Loans
Corporation pays interest. CCC receives direct          CCC makes both recourse and nonrecourse
appropriations for its foreign assistance               loans to producers on designated agricultural
programs and special activities, such as disaster       commodities. In the case of nonrecourse loans,
aid.      Permanent indefinite appropriation            producers have the option to: (a) repay the
authority exists for programs subject to the            principal plus interest; (b) for certain announced
Federal Credit Reform Act of 1990 (Credit               commodities, repay the loan at the market rate;
Reform). Receipts flowing through CCC's                 or (c) at maturity, forfeit the commodity in
revolving fund include proceeds from the sale of        satisfaction of the loan. These loans are not
CCC commodities, loan repayments, interest              subject to the accounting and reporting
income, and various program fees.                       requirements of Credit Reform.

CCC has no employees.        Its programs are           Interest is accrued on the unpaid principal
administered through various agencies including         balance of commodity loans, and a related
the Farm Service Agency (FSA), the Agricultural         allowance is established.



                                                                                                  Page 1
                                    COMMODITY CREDIT CORPORATION

                                        Notes to Financial Statements
                                            September 30, 2000

Commodity Loans, continued                                Capitalized Interest
Commodity loans are reported net of an                    Rescheduling agreements frequently allow CCC
allowance for doubtful accounts, which reduces            to add uncollected interest to the principal
the loans to net realizable value.              The       balance of foreign credit receivables (capitalized
allowances are based on the estimated loss on             interest). In such circumstances, CCC records
ultimate commodity disposition, when it is more           an allowance to reduce the receivable, including
likely than not that the loans will not be totally        the capitalized interest, to the net present value
collected. The allowance also takes into account          of future cash flows.         Interest income is
losses anticipated on the disposition of inventory        recognized only when, in management's
acquired through loan forfeiture. When forfeited          judgment, debtors have demonstrated the
commodities are subsequently disposed, any                ability to repay the debt in the normal course of
loss on the disposition is realized as either a cost      business.
of sales or donation, depending on the type of
disposition.                                              Commodity Inventories
                                                          Inventories are recorded at acquisition cost plus
Tobacco loans are subject to the No-Net-Cost              processing and packaging costs incurred after
Tobacco Program Act of 1982, as amended,                  acquisition. Acquisition cost is the amount of the
which requires tobacco producers to pay CCC a             loan settlement, excluding interest, or the
No-Net-Cost Assessment (NNCA) on each pound               amount of the purchase settlement price. Since
of tobacco they sell. Additionally, importers and         loan rates are established by statute, inventory
purchasers of flue cured and burley tobacco are           acquisitions are usually at a cost higher than
required to pay a NNCA on each pound of                   market value.
tobacco imported or purchased. These funds
earn interest and are applied against future loan         Generally, disposition costs are based on the
losses of the respective tobacco cooperative.             average cost of the commodity in inventory at
                                                          the end of the previous month. However, in
In    addition,  the     Federal   Agriculture            other cases, the cost is computed on the basis
Improvement and Reform Act of 1996 (1996                  of actual (historical) cost of the commodity.
Act) provides for special assessments from                This is prevalent with the following: (a)
producers and handlers to cover any losses on             dispositions from peanut price support
peanut loans.                                             inventory; (b) simultaneous acquisition and
                                                          disposition for commodity export programs; and
Credit Program Receivables                                (c) dispositions of commodities previously
CCC has several credit programs subject to                pledged as price support loan collateral which
Credit Reform requirements. Credit program                are acquired by CCC during the exchange of
receivables consist of:                                   commodity certificates. Commodity certificates
• direct credits extended under P.L. 83-480               are negotiable instruments issued by CCC, which
    (P.L. 480) programs, the Food for Progress            can be exchanged for a commodity owned or
    Program, and the Debt Reduction Fund;                 controlled by the Corporation.
• guaranteed payments made under the
    Export Credit Guarantee programs; and                 Commodity inventories held under price support
• loans made to grain producers to build or               and stabilization programs are reported at lower
    upgrade farm storage and handling facilities.         of cost or net realizable value through use of a
                                                          commodity valuation allowance. This allowance
These receivables, both pre- and post-Credit              is based on the estimated loss on commodity
Reform, are recognized as assets at the present           disposition, including donations (for which a 100
value of their estimated net cash inflows. The            percent allowance is established).
difference between the outstanding principal of
these receivables and the present value of their
net cash inflows is recognized as an allowance.




                                                                                                    Page 2
                                     COMMODITY CREDIT CORPORATION

                                          Notes to Financial Statements
                                              September 30, 2000

Property and Equipment                                      recognized as income; rather, it is deferred until
Property and equipment purchases are recorded               the interest is received or the receivable is
at the acquisition cost plus any expenditures,              returned to performing status.
such as freight, installation or testing, related to
placing the asset into service. Purchases of                Conservation Programs
personal property valued at $5,000 or more,                 As a result of the 1996 Act, CCC has assumed
with a useful life greater than 2 years, are                responsibility for funding certain conservation
capitalized. All other purchases of property or             programs which are administered by various
equipment are fully expensed in the year of                 agencies. For example, the Conservation
acquisition. Equipment used directly in the                 Reserve Program (CRP) is carried out by FSA
operation of programs is depreciated to an                  and the Wetlands Reserve Program (WRP),
estimated salvage value on a straight-line basis            Wildlife Habitat Incentives Program (WHIP),
over a 5 to 10 year period.                                 Farmland Protection Program (FPP), and
                                                            Environmental Quality Incentives Program
Liabilities                                                 (EQIP) are administered by NRCS. In order to
CCC recognizes a liability in one of two ways,              ensure completeness of reporting for these
depending on the type of transaction. If an                 programs, FSA and NRCS residual activity
exchange transaction occurs (i.e., when CCC                 funded by appropriations prior to the 1996 Act
receives goods or services in return for a                  are presented in these statements.
promise to provide money or other resources in
the future), a liability is recognized in the period        Prior Period Adjustments to Budgetary
in which the exchange occurred.                If a         Balances
nonexchange        transaction      occurs      (i.e.,      Budgetary balances reflected in this year’s
government programs where there is a one-way                financial statements include certain prior period
flow of resources or promises), a liability is              adjustments. Because there is no authoritative
recognized for any unpaid amounts due as of                 guidance on the accounting treatment of
the reporting date.                                         budgetary prior period adjustments, these
                                                            adjustments are reflected in current year
Estimated Loss on Credit Guarantees                         activity. The Corporation is following up with
The estimated loss on credit guarantees                     the Department of Treasury for guidance, but as
represents the estimated net cash outflows                  of the issuance of these financial statements, a
(loss) of the guarantees on a net present value             response has not yet been received.
basis. To this effect, CCC records a liability and
charges an expense to the extent, in                        Change in Accounting Policy
management's estimate, CCC will be unable to                In order to comply with Department of Treasury
recover claim payments under the post-Credit                accounting and reporting requirements for
Reform Export Credit Guarantee programs.                    transfer appropriations, beginning in fiscal year
                                                            2000, CCC's financial statements recognize
Interest Income on Direct Credits and                       transfers out to the U.S. Agency for
Credit Guarantees                                           International Development (AID). Heretofore,
Interest income is accrued on both performing               CCC accounted for these transfers as Federal
and non-performing credits and credit guarantee             advances and recognized them as assets on the
receivables as it is earned. A non-performing               Balance Sheet. Additionally, and in conformance
direct credit or credit guarantee receivable is             with Treasury requirements, the financial
defined as a repayment schedule under a credit              statements reflect a payable to AID for advance
agreement, with an installment payment in                   obligational authority granted.
arrears more than 90 days. For those non-
performing    receivables,   interest  is   not




                                                                                                      Page 3
                                 COMMODITY CREDIT CORPORATION

                                     Notes to Financial Statements
                                         September 30, 2000

Note 2 - Fund Balance with Treasury

Fund balances with Treasury, by type of fund, as of September 30, 2000, are as follows:
                                                                              (In Millions)

                                                                                 2000

                                                              Appropriated      Revolving
                                                                 Funds           Funds            Total


 Obligated                                                        $   1,191     $ (1,455)     $     (264)
 Unobligated:
      Available                                                        828           1,520          2,348
      Expired Authority                                                 12                             12
      Restricted                                                       187              481           668
 Total Fund Balance with Treasury                                 $   2,218     $       546   $     2,764



CCC is authorized to use in the conduct of its          Differences exist between CCC's records and
business all funds appropriated, transferred, or        cash, and what was reported by Treasury and in
allocated to it. The negative revolving fund            the President's Budget. These differences are
amount is a result of using these funds, which          primarily due to variations in the timing of
are offset by other funds available to the              document processing, resulting in a Treasury
Corporation, to repay its borrowings from               balance $88 million lower than that recorded in
Treasury.                                               CCC's books at September 30, 2000.




                                                                                                  Page 4
                                   COMMODITY CREDIT CORPORATION

                                     Notes to Financial Statements
                                         September 30, 2000

Note 3 - Accounts Receivable

Accounts receivable as of September 30, 2000, are as follows:
                                                                                       (In Millions)

                                                                                           2000

  Federal:
   Treasury Department                                                                 $     48
   Transportation Department                                                                 15
   Other Federal Agencies                                                                    13
                                                                                       $     76
  Non-Federal:
    Producer Overpayments on CCC Programs                                              $    142
    Claims Originating in State Offices                                                      72
    Interest Receivable                                                                      43
    Other                                                                                     1
    Subtotal                                                                                258

    Less Offset in Deferred Receivables                                                     (39)

    Subtotal                                                                               219

    Less Allowance for Doubtful Accounts                                                   (103)

  Total Non-Federal Accounts Receivable, Net                                       $        116


Non-Federal accounts receivable are adjusted by a valuation allowance based on historical collection and
write-off information, which reduces the receivables to their net realizable value.

The change in the allowance for doubtful accounts for the fiscal year ended September 30, 2000, is as
follows:

                                                                                       (In Millions)

                                                                                           2000

  Allowance – Beginning of Fiscal Year                                                 $    108

  Less Charge-offs                                                                           (6)
  Plus Provision for Doubtful Accounts                                                         1

  Allowance - End of Fiscal Year                                                       $    103




                                                                                                   Page 5
                                   COMMODITY CREDIT CORPORATION

                                     Notes to Financial Statements
                                         September 30, 2000

Note 4 – Commodity Loans, Net

CCC's commodity loan programs are exempt from the provisions of Credit Reform. Commodity loans
receivable, by commodity, as of September 30, 2000, are as follows:

                                                                             (In Millions)


       Commodity                                                                    2000
       Tobacco                                                                 $   1,544
       Wheat                                                                         332
       Corn                                                                          345
       Sugar                                                                         357
       Soybeans                                                                      137
       Rice                                                                          172
       Cotton                                                                        129
       Other                                                                          54
       Total Commodity Loans                                                       3,070
       Accrued Interest Receivable                                                   235
       Less Allowance for Losses                                                    (256)
       Total Commodity Loans, Net                                              $   3,049




                                                                                         Page 6
                                 COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000

Note 5 - Credit Program Receivables, Net

Credit program receivables consist of direct loans under the Farm Storage Facility Loan (FSFL) program,
direct credits under the P.L. 480 programs and claims against defaulting obligors under the Export Credit
Guarantee programs, as well as the associated interest. Credit program receivables as of September 30,
2000, are as follows:

                                                                      (In Millions)
                                            Credit            Interest          Allowance for
                                          Receivable,        Receivable,        Uncollectible      Credit Program
                                            Gross              Gross               Accounts        Receivable, Net

 P.L. 480 Title I                          $ 10,731            $ 136             $   (6,736)          $ 4,131
 Debt Reduction Fund                            103                                      (70)              33
 Food for Progress                              508                  11                 (381)             138
 Export Credit Guarantee Programs             7,302                  46               (4,205)           3,143
 Farm Storage Facility Loan Program              10                   *                    (*)             10

 Total Credit Program Receivables         $ 18,654            $    193          $    (11,392)         $ 7,455

* Less than $500 thousand

P.L. 480 direct credits outstanding that were obligated prior to fiscal year 1992 and related interest
receivable as of September 30, 2000, are as follows:

                                                                          (In Millions)
                                        Credit           Interest           Allowance for
                                      Receivable,       Receivable,         Uncollectible        Credit Program
                                        Gross             Gross                Accounts          Receivable, Net

 P.L. 480 Title I                      $ 8,542           $     107            $ (5,143)             $ 3,506




                                                                                                          Page 7
                                   COMMODITY CREDIT CORPORATION

                                       Notes to Financial Statements
                                           September 30, 2000

P.L. 480 direct credits and FSFL direct loans that were obligated after fiscal year 1991 and related interest
receivable outstanding as of September 30, 2000, are as follows:

                                                                          (In Millions)
                                            Credit             Interest         Allowance for
                                          Receivable,         Receivable,       Uncollectible     Credit Program
                                            Gross               Gross              Accounts       Receivable, Net

 P.L. 480 Title I                             $ 2,189              $      29       $ (1,593)            $      625
 Debt Reduction Fund                                103                                    (70)                 33
 Food for Progress                                  508                   11              (381)                138
 Farm Storage Facility Loan Program                    10                  *                (*)                 10


 Total                                        $ 2,810             $       40        $ (2,044)            $     806

* Less than $500 thousand

Defaults on credit guarantees made prior to fiscal year 1992 and related interest receivable as of
September 30, 2000, are as follows:

                                                                          (In Millions)
                                           Credit            Interest          Allowance for
                                         Receivable,        Receivable,        Uncollectible      Credit Program
                                           Gross              Gross               Accounts        Receivable, Net

 Export Credit Guarantee Programs         $ 5,543            $    22            $ (3,204)            $ 2,361




                                                                                                             Page 8
                                     COMMODITY CREDIT CORPORATION

                                       Notes to Financial Statements
                                           September 30, 2000

Defaults on credit guarantees made after fiscal year 1991 and related interest receivable as of
September 30, 2000, are as follows:

                                                                            (In Millions)
                                           Credit          Interest            Allowance for
                                         Receivable,      Receivable,          Uncollectible       Credit Program
                                           Gross            Gross                 Accounts         Receivable, Net

    Export Credit Guarantee Programs      $ 1,759          $        24          $ (1,001)               $       782


The change in the allowance for uncollectible accounts for the fiscal year ended September 30, 2000, is
as follows:

                                                                                              (In Millions)
                                                                                               2000
    Allowance – Beginning of Fiscal Year, Unadjusted                                        $ 10,700
    Prior Period Adjustments                                                                   (130)
    Allowance – Beginning of Fiscal Year, As Unadjusted                                       10,570

    Less Change in Deferred Liability for Prepaid Amounts Received                                (5)
    Plus Provision for Doubtful Accounts                                                         827

    Allowance - End of Fiscal Year                                                          $ 11,392


As of September 30, 2000, credit guarantees outstanding are as follows:


                                                                         (In Millions)
                                           Outstanding         Outstanding         Outstanding          Outstanding
                                            Principal,          Interest,            Principal            Interest
                                           Face Value          Face Value          Guaranteed *         Guaranteed *

    Export Credit Guarantee Programs         $ 4,470            $        359             $ 4,363            $     193


*         Represents a contingent liability for amounts owed by foreign banks to exporters or assignee U.S.
          financial institutions participating in the program.




                                                                                                                 Page 9
                                    COMMODITY CREDIT CORPORATION

                                         Notes to Financial Statements
                                             September 30, 2000

The liability for credit guarantees as of September 30, 2000, is as follows:

                                                                    (In Millions)
                                           Liability for Losses   Liabilities for Losses
                                              on Pre-1992            on Post-1991              Total Liabilities for
                                               Guarantees             Guarantees               Credit Guarantees

    Export Credit Guarantee Programs             $         0                 $ 92                       $ 92

Subsidy expense for the P.L. 480 programs for fiscal year 2000 is $586 million.

For the fiscal year ended September 30, 2000, subsidy expense for current year disbursements of post-
1991 direct credits is as follows:

                                                                    (In Millions)
                                       Interest Differential*            Defaults                        Total


    P.L. 480 Title I                         $       254                 $     228                   $      482

*          Represents the difference between the interest rate charged to borrowers and the interest rate
           paid on CCC’s Treasury borrowings.

For the fiscal year ended September 30, 2000, subsidy re-estimates on direct credits and loans are as
follows:


                                                                                               (In Millions)

                                                                                                2000

    P.L. 480 Title I                                                                       $       99
    Debt Reduction Fund                                                                           (2)
    Food For Progress                                                                               7
    Farm Storage Facility Loan Program                                                              *

    Total Direct Credit Upward/(Downward) Re-estimates                                     $     104


* Less than $500 thousand

These amounts include re-estimates calculated for financial statement purposes for cumulative
disbursements for all cohorts. Technical re-estimates for budget purposes are calculated separately.




                                                                                                            Page 10
                                  COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000

Subsidy expense for credit guarantees for fiscal year 2000 is $527 million.

Subsidy expense for current year disbursements of credit guarantees made after fiscal year 1991 for
fiscal year ended September 30, 2000, is as follows:

                                                                        (In Millions)
                                                       Defaults               Fees              Total

 Export Credit Guarantee Programs                       $ 188                 $ (17)            $ 171


For the fiscal year ended September 30, 2000,            of the net present value of future cash inflows of
upward     subsidy   re-estimates  on   credit           foreign credit receivables. In addition, CCC
guarantees are $356 million. This amount                 decreased its estimate of the related subsidy
includes re-estimates calculated for financial           expense and bad debt expense because of these
statement       purposes     for    cumulative           reschedulings. Foreign credit rescheduling
disbursements for all cohorts. Technical re-             results through negotiations conducted through
estimates for budget purposes are calculated             the Paris Club.
separately.
                                                         The Paris Club Agreed Minutes of April 13, 1999,
The principal balance of CCC direct credit and           consolidated and reduced Honduras credit
credit guarantee receivables in a non-performing         guarantees owed to CCC. As a result of this
status at September 30, 2000, totaled $1,619             modification, principal in the amount of $22
million. If interest had been reported on these          million was transferred from CCC’s Liquidating
non-performing receivables, instead of reported          Fund to CCC’s Debt Reduction Fund.             This
only to the extent of the collections received,          amount is exclusive of interest to be capitalized.
direct credit and credit guarantee interest
income would have increased by $36 million to a          In addition, the Government of the United
total of $975 million in fiscal year 2000. During        States and the Government of the People’s
the entire delinquency, if interest had been             Republic of Bangladesh entered into a Tropical
reported on these non-performing receivables,            Forest Agreement to facilitate the conservation,
instead of reported only to the extent of the            protection, restoration, and sustainable use and
collections received, interest income would have         management of tropical forests in Bangladesh.
increased by $417 million.                               This modification resulted in the reduction of
                                                         P.L. 480 direct credits of $1 million in principal
Direct credit and credit guarantee receivables           and $1 million of accrued interest owed to CCC.
under rescheduling agreements as of September            The remaining amount of debt was transferred
30, 2000, were $7,782 million. During fiscal             from CCC’s Liquidating Fund to CCC’s Debt
year 2000, CCC entered into agreements with              Reduction Fund.
debtor countries to reschedule their delinquent
debt owed to CCC. These reschedulings totaled            The discount rate used for calculating the
$415 million in delinquent principal and $391            modification expense of $14 million was 6.4%.
million in delinquent interest. As a result of
these reschedulings, CCC increased its estimate




                                                                                                  Page 11
                                  COMMODITY CREDIT CORPORATION

                                        Notes to Financial Statements
                                            September 30, 2000

Note 6 - Other Foreign Receivables, Net

Other foreign receivables, consisting of principal and interest, as of September 30, 2000, are as follows:


                                                                                              (In Millions)

                                                                                               2000

 Export Credit Sales Program                                                              $       60
 Office of General Sales Manager Program                                                          42
 Consolidated Rescheduled                                                                        305

 Subtotal                                                                                        407

 Less Allowance for Doubtful Accounts                                                           (77)

 Total Other Foreign Receivables, Net                                                     $      330


Note 7 - Cash

Cash consists of collections in transit. As of September 30, 2000, cash totaled $65 million.




                                                                                                       Page 12
                                  COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000

Note 8 - Commodity Inventories, Net

CCC's inventory as of September 30, 2000, is as follows:
                                                                                            (In Millions)

                                                                                              2000

 Commodity Inventories - Beginning of Fiscal Year                                       $       714
 Acquisitions                                                                                 1,768
 Cost of Sales                                                                                 (858)
 Donations                                                                                     (396)
 Other Dispositions, Additions and Deductions                                                   (24)

 Commodity Inventories - End of Fiscal Year                                                   1,204

 Less Allowance for Losses                                                                     (702)

 Commodity Inventories, Net                                                             $       502


Commodity loan forfeitures during the fiscal year          years. Commodities are to be used solely for
ended September 30, 2000, were $341 million.               emergency food assistance in developing
Estimated future commodity donations are                   countries. As a result of the 1996 Act, the
expected to be $557 million. An analysis of the            reserve may include rice, corn, and sorghum, as
change in inventory by commodity for the fiscal            well as wheat. The reserve is established at 4
year ended September 30, 2000, is presented in             million metric tons and is replenished through
Schedule B.                                                purchases or by designation of commodities
                                                           owned by CCC. The authority to replenish the
Restrictions on Commodity Inventory                        reserve expires at the end of fiscal year 2002.
In accordance with the Agricultural Act of 1970,
as amended, CCC may establish, maintain, and               As of September 30, 2000, CCC had committed
dispose of a separate reserve of inventories for           over 5.5 million hundredweight of refined sugar
the purpose of alleviating distress caused by a            valued at $105 million from CCC’s inventory to
natural disaster. These inventories may consist            be used as a payment-in-kind for a sugar
of feed grains, soybeans, and wheat. The                   diversion program. As of September 30, CCC
reserve has been depleted. By statute, the                 had $98 million of refined sugar in inventory;
amount held in reserve cannot exceed 20 million            the balance committed for this program will be
bushels.                                                   acquired through loan forfeitures.           This
                                                           inventory of sugar will be given to sugar
CCC maintains a required commodity reserve for             producers in exchange for their diverting current
use when domestic supplies are so limited that             year production. The level of exchange was
quantities cannot meet the availability criteria           established as a result of an offer made by the
under P.L. 480. In addition, if commodities that           producer and accepted by CCC. The sugar will
meet unanticipated needs under Title II of P.L.            be made available to sugar processors who have
480 cannot be made available in a timely                   been designated by sugar producers to handle
manner, the Secretary may release up to                    the marketing of the sugar on their behalf. The
500,000 metric tons of wheat or an equivalent              sugar will be released to the processors at
value of eligible commodities, plus up to                  approximately the same time the commodity
500,000 metric tons of eligible commodities that           would have normally entered the market to
could have been released, but were not                     minimize its impact.
released, under this authority in prior fiscal



                                                                                                     Page 13
                                  COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000

Note 9 - Property and Equipment, Net

Property and equipment is depreciated to its             Contractor developed software costs are
estimated salvage value on a straight-line basis.        capitalized and depreciated over a period of 5
ADP equipment has a service life of 6 years,             years, beginning with the first year the software
while non-expendable administrative property is          is fully operational.      Capitalized software
depreciated over a service life range of 5 to 10         development     costs   consist    of    activities
years. The salvage value, as a percentage of             associated with the establishment of a new
acquisition cost, is 10 percent for ADP                  CORE accounting system for CCC, which was
equipment, and 5 to 20 percent for non-                  implemented in fiscal year 2000.
expendable administrative property.

Property and equipment as of September 30, 2000, are as follows:
                                                                                   (In Millions)
                                                                                       2000
                                                                  Acquisition      Accumulated        Net Book
                                                                    Value          Depreciation        Value

 ADP Equipment                                                        $   112       $       (104)          $   8
 Non-Expendable Administrative Property                                    27                (22)              5
 Capitalized Software Development Costs                                     4                 (1)              3
 Other                                                                      *                 (0)              *

 Total Property and Equipment                                         $   143           $   (127)      $       16

 * Less than $500 thousand


Note 10 - Resources Payable to Treasury

Resources payable to Treasury represents the             these programs. In addition, it is reduced by
net resources of the pre-Credit Reform                   payments to Treasury of excess funds not
programs.    This liability is increased (or             needed for working capital.
decreased) by net gains (or losses) incurred in

The change in resources payable to Treasury for fiscal year 2000, is as follows:

                                                                                               (In Millions)

                                                                                                      2000

 Resources Payable to Treasury - Beginning of Fiscal Year, Unadjusted                          $     6,089
 Prior Period Adjustments                                                                              395
 Resources Payable to Treasury – Beginning of Fiscal Year, As Adjusted                               6,484

 Repayment of Excess Funds to Treasury                                                               (781)
 Net Gain/(Loss) on Liquidating Funds                                                                  270
 Receivable from Treasury                                                                               19
 Other                                                                                                   5

 Resources Payable to Treasury - End of Fiscal Year                                                $ 5,997



                                                                                                       Page 14
                                   COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000


Note 11 - U.S. Treasury Borrowings

U.S. Treasury borrowings, categorized as interest bearing and non-interest bearing notes, as of
September 30, 2000, are as follows:
                                                                                          (In Millions)

                                                                                              2000

 Borrowings - Beginning of Fiscal Year:
   Interest Bearing                                                                      $ 20,226
   Non-Interest Bearing                                                                    10,098

 Total Borrowings Outstanding – Beginning of Fiscal Year                                    30,324

 New Borrowings:
   Interest Bearing                                                                         33,081
   Non-Interest Bearing                                                                          0
 Total New Borrowings                                                                       33,081

 Repayments:
   Interest Bearing                                                                       (38,012)
   Non-Interest Bearing                                                                      (540)
 Total Repayments                                                                         (38,552)

 Interest Refinanced                                                                              25

 Borrowings - End of Fiscal Year
   Interest Bearing                                                                         15,320
   Non-Interest Bearing                                                                      9,558

 Total Borrowings Outstanding - End of Fiscal Year                                       $ 24,878

The total amount refinanced in fiscal year 2000         The fiscal year 2000 interest rate on long-term
was $16,087 million. Of that amount, $16,062            borrowings under the permanent indefinite
million consisted of outstanding borrowings             borrowing authority for the P.L. 480 programs
rolled over. Accrued interest rolled over into          was 6.36 percent for fiscal year 2000
notes payable was $25 million.                          disbursements. The interest rate for the Export
                                                        Credit Guarantee programs, GSM-102 and GSM-
Interest on borrowings under CCC's permanent            103, was 6.38 percent and 6.39 percent,
indefinite borrowing authority from Treasury is         respectively, for fiscal year 2000 disbursements.
paid at a rate based upon the average interest          The interest rate for the FSFL direct loans
rate of all outstanding marketable obligations (of      program was 6.39 percent for fiscal year 2000
comparable maturity date) of the United States          disbursements. These are the average interest
as of the preceding month. Monthly interest             rates computed by OMB and used uniformly by
rates ranged from 5.25 percent to 6.25 percent          all government entities, unless specific
during fiscal year 2000.       Interest expense         exemptions apply.        These rates are applied
incurred on these borrowings was $572 million           retroactively to all borrowings from October 1 of
for fiscal year 2000.                                   the preceding year. Weighted average interest
                                                        rates are computed based upon actual
                                                        disbursements for prior cohorts.



                                                                                                  Page 15
                                     COMMODITY CREDIT CORPORATION

                                         Notes to Financial Statements
                                             September 30, 2000

During fiscal year 2000, the terms for                     Interest expense incurred on borrowings
borrowings made for the Export Credit                      associated with these programs amounted to
Guarantee programs were at least 10 years,                 $150 million for fiscal year 2000.
while the repayment terms for borrowings for
the P.L. 480 program were 30 years and 7 years
for direct loans under the FSFL program.

Note 12 - Accrued Liabilities

Accrued liabilities as of September 30, 2000, are as follows:
                                                                                        (In Millions)

                                                                                            2000
 Liabilities Covered by Budgetary Resources

 Federal:
   Reimbursable Agreement Activities                                                    $       4

 Total Federal Accrued Liabilities                                                      $       4

 Non-Federal:
   Loan Deficiency Payments                                                             $ 1,167
   Accrued Carrying Charges                                                                  10
   Crop Loss Disaster Program                                                                 9
   Other Programs                                                                            14

    Subtotal                                                                            $   1,200


 Liabilities Not Covered by Budgetary Resources

 Non-Federal:
   Conservation Reserve Program                                                         $   1,670

 Total Non-Federal Accrued Liabilities                                                  $   2,870




                                                                                              Page 16
                                   COMMODITY CREDIT CORPORATION

                                       Notes to Financial Statements
                                           September 30, 2000

Note 13 - Deposit and Trust Liabilities

Deposit and trust liabilities are amounts advanced to or deposited with CCC, on behalf of other entities.
The balances, categorized as Federal and non-Federal, as of September 30, 2000, are as follows:
                                                                                          (In Millions)

                                                                                               2000

 Federal:
  Advances from Agricultural Marketing Service and Food and Nutrition Service             $     510
  Other                                                                                          17

 Total Federal Deposit and Trust Liabilities                                               $    527

 Non-Federal:
   No Net Cost Tobacco Program                                                             $    579
   Other                                                                                         90

 Total Non-Federal Deposit and Trust Liabilities                                           $    669




Note 14 - Excess Subsidy Payable

Excess subsidy payable as of September 30, 2000, is as follows:
                                                                                       (In Millions)

                                                                                               2000

 P.L. 480 Programs                                                                         $    203
 Farm Storage Facility Loan Program                                                               *

 Total Excess Subsidy Payable                                                              $    203

 * Less than $500 thousand


This payable represents excess subsidy to be returned to Treasury as a result of Credit Reform negative
subsidy re-estimates.




                                                                                                Page 17
                                   COMMODITY CREDIT CORPORATION

                                       Notes to Financial Statements
                                           September 30, 2000

Note 15 - Other Liabilities

Other liabilities as of September 30, 2000, are as follows:
                                                                                         (In Millions)

                                                                                              2000

 Non-Federal:
    Deferred Tobacco Marketing Assessment Income                                             $       7
    Other                                                                                            *

 Total Other Non-Federal Liabilities                                                         $       7

* Less than $500 thousand

These liabilities are considered current.


Note 16 - Contingencies and Commitments

CCC has commitments and contingencies as                  2000, CCC’s estimated future liabilities are $200
discussed below which are not otherwise                   million.
reflected on the financial statements. Sales and
other disposition commitments are not reflected           The Noninsured Crop Assistance Program (NAP)
in the accounts, but are considered in                    was authorized as a CCC program under the
establishing allowances for doubtful accounts.            1996 Act and is a standing crop disaster aid
                                                          program for crops that are not covered by
The 1996 Act replaced acreage reduction                   catastrophic risk protection crop insurance.
programs with production flexibility contract             Program expenses for the fiscal year ended
payments. These payments are made on a                    September 30, 2000, were $38 million. An
fixed payment schedule over 7 years. CCC paid             estimate of the range of annual payments
over $5 billion during fiscal year 2000, with $8          cannot be made. However, it is estimated that
billion remaining to be paid over the next 2              $177 million will be outlayed in fiscal year 2001.
years.
                                                          Commitments to acquire commodities represent
Under WRP, CCC purchases easements, based                 the contract value of commodities not yet
on agricultural value, to restore wetlands that           delivered under CCC purchase contracts.
have previously been drained and converted to             Commodity contracts amounted to $330 million
agricultural uses, to protect or enhance wetlands         at September 30, 2000.
on the owner’s property. WRP also provides an
opportunity for landowners to receive cost-share          The Dairy Export Incentive Program is
payments to restore, protect, or enhance a                authorized under the Food Security Act of 1985,
wetland without selling an easement. Program              to facilitate the export of U.S. dairy products.
expenses for the fiscal year ended September              Under this program, CCC pays the exporter a
30, 2000, were $115 million. At September 30,             bonus, when necessary, to enable an exporter
                                                          to sell the product at a competitive world price.




                                                                                                  Page 18
                                    COMMODITY CREDIT CORPORATION

                                        Notes to Financial Statements
                                            September 30, 2000

Program expenses were approximately $112                  The Market Access Program was authorized by
million for fiscal year 2000. On September 30,            the Agriculture Trade Act of 1978, as amended,
2000, CCC estimated its future liabilities to be          to encourage the development, maintenance,
$34 million.                                              and expansion of commercial export markets for
                                                          agricultural commodities through cost-share
The        Corporation     formerly       operated        assistance to eligible trade organizations that
approximately 4,500 grain storage facilities in           implement a foreign market development
the United States. To date, at approximately              program.      CCC makes funds available to
120 of these facilities, Carbon Tetrachloride (a          reimburse program participants for authorized
fumigant commonly used at grain storage                   promotional expenses. Program expenses for
facilities during that time) was discovered in            the fiscal year ended September 30, 2000, were
groundwater. As of September 30, 2000, the                $94 million. At September 30, 2000, CCC
Environmental Protection Agency has designated            estimated its future liabilities could range up to
CCC the potentially responsible party for ground          $159 million.
water contamination near 4 of the former 120
CCC grain storage locations. CCC is undertaking           Through CRP, participants sign 10-15 year
site investigations at these and other former             contracts to remove land from production in
locations. USDA roughly estimates the total cost          exchange for an annual rental payment. The
of this effort (including site inspection and             participants also receive a one-time payment
cleanup, as well as operations and maintenance)           equal to not more than 50 percent of the eligible
to be $34 million for the fiscal years 2001               costs of establishing conservation practices on
through 2004. Of this amount, the Department              the reserve acreage. CCC estimates that the
is expected to provide funding of $12 million             future liability for CRP annual rental payments
under the ongoing Department-wide hazardous               through fiscal year 2010 is $18 billion. This
waste management program. However, this                   estimate is based on current program levels with
amount is contingent on the amount actually               the assumption that expiring lands are re-
appropriated to the USDA hazardous waste fund             enrolled or replaced with lands of equal value.
and subsequently allotted to CCC. Potential               At September 30, 2000, accrued payments
costs are extremely difficult to estimate until site      totaled $1,670 million.
investigations are completed. CCC intends to
monitor the cost estimate and make revisions as
necessary.

The following is a schedule of future minimum rental payments required under FSA operating leases for
which CCC is directly liable. The leases can be canceled after a period not to exceed 120 days.


                    Fiscal Year ended September 30                        (In Millions)
   2001                                                                          $   4
   2002 and thereafter                                                               3

   Total                                                                         $   7

Allocated rent expense net of reimbursements received on these leases was $62 million for fiscal year
2000.




                                                                                                  Page 19
                                   COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000

According to an AID Office of Inspector General         In the normal course of business, CCC becomes
report, it is estimated that CCC could be entitled      involved in legal disputes and claims for action
to $289 million in unclaimed reimbursements             against the Corporation.      CCC, through the
from the Department of Transportation. Of this          Office of the General Counsel, is vigorously
amount, up to $175 million could be made                defending these actions. In the opinion of CCC,
available to AID. Since CCC has not yet verified        claims and litigations asserted against the
these amounts, they are not reflected in these          Corporation as of September 30, 2000, will have
financial statements.                                   no material effect on the financial statements.
                                                        See Note 18 for additional disclosures.


Note 17 - Unexpended Appropriations

Unexpended appropriations of the Corporation as of September 30, 2000, are as follows:

                                                                                          (In Millions)

                                                                                              2000

 Undelivered Orders                                                                      $     780
 Unobligated:
     Available                                                                                 833
     Unavailable                                                                               208

 Total Unexpended Appropriations                                                         $   1,821


Note 18 - Disclosures Not Related to a Specific Statement

Related Party Transactions                              these domestic purposes, including related
                                                        transportation and storage costs, for the fiscal
CCC's domestic programs are carried out                 year ended September 30, 2000, was $45
primarily through FSA personnel. CCC makes              million.
disbursements for many FSA programs, which
are funded through allocation transfers from            Under Credit Reform, CCC transferred $5 million
FSA. During fiscal year 2000, FSA transferred to        to FAS and an additional $1 million to FSA
CCC $220 million to cover payments made by              during fiscal year 2000 for salaries and expenses
CCC in the approximate amount of $236 million.          of the foreign programs. In addition, CCC paid
                                                        $56 million to FSA to cover administrative costs
The Corporation also provides and uses the              in carrying out the Market Loss Assistance
services of other USDA agencies to carry out its        Program.
authorities and responsibilities. AMS and the
Food and Nutrition Service (FNS) fund the               During fiscal year 2000, outlays under
purchase of some commodities. In addition,              reimbursable agreements with other USDA
AMS funds the purchase of commodities for the           agencies amounted to $48 million. Interagency
purpose of facilitating additional sales in world       accruals, reflecting amounts due and payable as
markets at competitive prices. As of September          of September 30, 2000, on reimbursable
30, 2000, the related deposit and trust liability       agreements, amounted to $4 million.
for AMS and FNS was $510 million.
                                                        During the fiscal year ended September 30,
CCC donates commodities for use under                   2000, the Corporation transferred $217 million
domestic feeding programs administered by               to the Animal and Plant Health Inspection
FNS. The value of commodities donated for


                                                                                                Page 20
                                   COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000

Note 18 - Disclosures Not Related to a Specific Statement, continued

Service (APHIS) for the eradication of animal            CCC paid NRCS $33 million for CRP technical
and plant diseases. It also transferred $5 million       assistance and $33 million for EQIP technical
for a livestock mandatory market news program.           assistance during fiscal year 2000.
A deposit and trust liability to cover payments
for karnal bunt on behalf of APHIS was $2                Also, CCC transferred $3 million to the Forest
million as of September 30, 2000.                        Service for emergency program activities.

In fiscal year 2000, CCC transferred $400 million
to the Risk Management Agency (RMA) for
funding the emergency financial assistance
premium discount program. In addition, CCC
transferred $430 million to RMA for the fiscal
year 1999 funding of this program.

Custodial Activity

 Custodial activity for the fiscal year ended September 30, 2000, is as follows:
                                                                                               (In Millions)

                                                                                                     2000

 Sources of Collection:
  Repayment of Farm Credit Loans                                                           $     1,635
  Warehouse Fees                                                                                     *
  Administrative and Other Service Fees                                                              *
 Total Revenue Collected                                                                         1,635

 Disposition of Collection:
  Farm Service Agency                                                                            1,635
  Amounts Transferred to Treasury                                                                    *
  Amounts Retained by CCC                                                                            *
 Total Disposition of Revenue                                                                    1,635
 Net Custodial Activity                                                                    $           0


* Less than $500 thousand

Subsequent Events

Section 11, Cooperation with Other Government            considered    in    calculating       the     amounts
Agencies, of the Corporation’s Charter Act was           reimbursed in fiscal year 1995.
amended in 1996 to provide that reimbursable
amounts with other government agencies,                  A Stipulation and Order filed in the United States
beginning in fiscal year 1997, could not exceed          District Court on February 7, 2001, provided that
the amounts reimbursed in fiscal year 1995. In           members of the Pigford Class Action who
consultation with the Office of General Counsel,         prevailed on a claim of discrimination involving a
CCC      officials   determined     that    two          USDA non-credit benefit program shall be
reimbursements relating to service charges and           entitled to a lump sum payment. Total claims to
measurement services with FSA were not                   be paid by CCC involving CCC programs will
                                                         amount to $1 million.


                                                                                                      Page 21
                                  COMMODITY CREDIT CORPORATION

                                     Notes to Financial Statements
                                         September 30, 2000

Note 19 - Disclosures Related to the Statement of Changes in Net Position

Prior period adjustments, representing increases to Cumulative Results of Operations, as of September
30, 2000, are as follows:

                                                                                        (In Millions)

                                                                                            2000

 Export Credit Guarantee Programs                                                       $   3,186
 P.L. 480 Programs                                                                             64
 Other                                                                                         12

 Total Prior Period Adjustments                                                         $   3,262


As a result of extensive research conducted on the Credit Reform program allowances and other activity,
significant adjustments were made to general ledger balances, requiring the correction of prior years’
results.




                                                                                              Page 22
                                 COMMODITY CREDIT CORPORATION

                                     Notes to Financial Statements
                                         September 30, 2000

Note 20 - Earned Revenue

Earned revenue as of September 30, 2000, is as follows:
                                                                                              (In Millions)

                                                                                                  2000

 Earned Revenue from Non-Federal Parties:
   Interest Revenue                                                                        $       851
   Commodity Operations                                                                            669
   Farm Income Support                                                                               7
   P.L. 480                                                                                          2
   Other Program Revenue                                                                            10
 Total Earned Revenues from Non-Federal Parties                                                  1,539

 Earned Revenue from Federal Parties                                                               303
 Total Earned Revenue                                                                     $      1,842

Subsidy expense is the present value of net cash          During fiscal year 2000, interest revenue from
flows related to Credit Reform direct credit and          Credit Reform direct credit and credit guarantee
credit guarantee programs. One of the cash                programs was $678 million.
inflow elements included in the calculation of
subsidy expense is interest revenue.


Note 21- Disclosures Related to the Statement of Budgetary Resources

The Statement of Budgetary Resources is a                 CCC has a permanent indefinite borrowing
combining statement and, as such, intra-entity            authority, as defined by OMB Circular A-11,
transactions have not been eliminated.                    Preparation and Submission         of   Budget
                                                          Estimates, of $30 billion. The Corporation’s
The net amount of budgetary resources                     borrowing authority is made up of both interest
obligated for undelivered orders as of                    and non-interest bearing notes. These notes
September 30, 2000, is $2,789 million.                    are drawn upon daily when disbursements
                                                          exceed deposits, as reported by the FRB’s, their
The amount of available borrowing authority as            branches and CCC’s financing office. When
of September 30, 2000, is $7,051 million.                 deposits exceed disbursements, CCC makes
                                                          repayments on its notes. Deposits (financing
The majority of the $55,320 million adjustments           sources) flowing through CCC’s revolving fund
represent redemption of debt or the amount of             include proceeds from the sale of CCC
principal repayments paid to the Treasury on              commodities, loan repayments, interest income
CCC's outstanding borrowings. The majority of             and various program fees. CCC’s notes payable
the remaining balance represents the actual               under its permanent indefinite borrowing
recoveries of prior year obligations.                     authority have a term of one year.




                                                                                                    Page 23
                                  COMMODITY CREDIT CORPORATION

                                      Notes to Financial Statements
                                          September 30, 2000

On January 1 of each year, CCC refinances its           accounts that are not covered by sufficient
outstanding borrowings, including accrued               working capital.
interest, at the January borrowing rate.
                                                        Unobligated budget authority is the difference
CCC may borrow interest-free up to the amount           between the obligated balance and the total
of its unreimbursed realized losses. For interest       unexpended balance and represents that portion
bearing notes, interest is accrued at a rate            of the unexpended balance unencumbered by
based upon the average interest rate of all             recorded obligations. An appropriation expires
outstanding U.S. marketable obligations of              on the last day of its period of availability and is
comparable maturity date as of the preceding            no longer available for new obligations.
month.                                                  Unobligated balances retain their fiscal year
                                                        identity in an “expired account” for that
CCC has a separate permanent indefinite                 appropriation for an additional five fiscal years.
borrowing authority for the Credit Reform               The unobligated balance remains available to
programs to finance disbursements on post-              make legitimate obligation adjustments, i.e., to
Credit Reform direct credit obligations and credit      record previously unrecorded obligations and to
guarantees. In accordance with Credit Reform,           make upward adjustments in previously under-
CCC borrows from Treasury on October 1, for             recorded obligations.
the entire fiscal year, based on annual estimates
of the difference between the amount                    CCC’s borrowing authority under its revolving
appropriated (subsidy) and the amount to be             fund is indefinite and, therefore, no unobligated
disbursed to the borrower. CCC may repay                balance carries forward to the following year,
under this agreement, in whole or in part, prior        except for any federal receivables and unfilled
to maturity by paying the principal amount of           customer orders.
the borrowings plus accrued interest to the date
of repayment. CCC is required to pay interest to        No contributed capital was received during the
Treasury on the last day of the fiscal year,            reporting period.
based on the outstanding balance of borrowings
in each financing fund. Interest is paid on these       The Statement of Budgetary Resources agrees
borrowings based on weighted average interest           with the SF-133, Report on Budget Execution.
rates for the cohort to which the borrowings are        However, differences exists between the net
associated. CCC earns interest from Treasury            outlays on the Statement of Budgetary
on the daily balance of uninvested funds in the         Resources and the net disbursements as
Credit Reform financing funds. The interest             reported on the Monthly Treasury Statement
income is used to reduce interest expense on            and the TFS-6653, Undisbursed Appropriation
the underlying borrowings.                              Account Ledger. Reconciliations are performed
                                                        to the general ledger to identify and determine
No adjustments were made during the reporting           the nature of the differences and ensure that
period to budgetary resources available at the          they are resolved.         Because of varying
beginning of the year.                                  processing times and cut-off dates between
                                                        agencies, timing differences will occur which
Under Credit Reform, CCC receives an annual             represent activities that are either recorded in
appropriation to fund subsidy costs incurred. In        Treasury and not processed by CCC during the
addition, CCC has permanent indefinite                  same month/fiscal year or vice versa.
appropriation authority available to finance any
disbursements incurred under the liquidating




                                                                                                  Page 24
                                           COMMODITY CREDIT CORPORATION

                                                Notes to Financial Statements
                                                    September 30, 2000

The following provides a comparison of the Net Outlays on the Statement of Budgetary Resources to the
Net Disbursements on the Monthly Treasury Statement and the TFS-6653. The differences identified are
timing differences resulting from transactions processed by Treasury in a different month/fiscal year than
was processed by CCC.


                                                                              (In Millions)
                                                                Net Outlays
                        Fund Symbol                            Statement of          Net Disbursements
                                                            Budgetary Resources           TFS-6653          Difference

   12X4336-CCC Revolving Fund                                         $ 31,906                $ 31,881         $         25
   12X0500-Hazardouse Waste Mgmt. Fund                                          2                      2                  0
   12X1336-Export Credit Guarantee Program                                    205                    205                  0
   12X4337-Export Credit Guarantee Financing                              (352)                  (290)               (62)
   12X4338-Export Credit Guarantee Liquidating                            (241)                  (214)               (27)
   12X2277-P.L. 480 Direct Credit Program                                     294                    294                  0
   12X4049-P.L. 480 Direct Credit Financing                                    53                     88             (35)
   12X2274-P.L. 480 Direct Credit Liquidating                             (492)                  (489)                   (3)
   12X2273-P.L. 480 Title I, FFP Program                                        0                      0                  0
   12X4078-P.L. 480 Title I, FFP Financing                                     (5)                    (5)                 0
   12X4143-Debt Reduction Financing                                           (20)                   (20)                 0
   12X2278-P.L. 480 Grants, Titles I OFD, II & III                            993                    993                  0
   110091-Treasury Debt Reduction Program                                      14                     14                  0
   12X3301-Farm Storage Facility Program                                        0                      0                  0
   12X4158-Farm Storage Facility Financing                                     10                     10                  0
   12FY0600(36)-FSA Salaries and Expenses                                     167                    167                  0
   12FY3300(36)-FSA Salaries and Expenses                                       *                      *                  0
   12X2701(36)-FSA Tree Assistance Program                                      1                      1                  0
   12X3314(36)-FSA Dairy & Beekeeper Indem.                                     *                      *                  0
   12X3315-FSA Agricultural Conservation                                        4                      4                  0
   12X3316(36)-FSA Emergency Conservation                                      65                     65                  0
   12X3319-FSA Conservation Reserve                                            20                     20                  0
   12X3337(36)-FSA Rural Clean Water                                            0                      0                  0
   12X1080-NRCS Wetlands Reserve                                                7                      7                  0
   12X2268-NRCS Great Plains Conservation                                       3                      3                  0
   12X3318-NRCS Colorado River Salinity                                         2                      2                  0
   Total                                                              $ 32,636                $ 32,737


*Less than 500 thousand.




                                                                                                                   Page 25
                                  COMMODITY CREDIT CORPORATION

                                     Notes to Financial Statements
                                         September 30, 2000

Note 22 - Disclosures Related to the Statement of Financing

The following provides a description of the “Other” categories on the Statement of Financing.


                                                                                            (In Millions)

                                                                                                          2000

  Other Non-Budgetary Resources

  Non-Exchange Revenues:
    Fees                                                                                            $        0
    Fines/Penalties                                                                                         11
    Assessments                                                                                              *
    Miscellaneous                                                                                            *

  Total Other Non-Budgetary Resources                                                               $       11

  Other Resources Used to Fund Items Not Part of the Net Cost of Operations


  Prior Period Adjustment – Reclass of Prior Year Receivable                                $               (2)

  Total Other Resources Used to Fund Items Not Part of the Net Cost of Operations           $               (2)

 Other Net Cost Components Not Requiring or Generating Resources During
 the Reporting Period

  Excess Subsidy Expense:
    Farm Storge Facility Loan Program                                                       $               (*)
    P.L. 480 Programs                                                                                       (*)
    Export Credit Guarantee Programs                                                                      (312)

 Total Other Net Cost Components Not Requiring or Generating Resources During the
 Reporting Period                                                                               $         (312)

* Less than $500 thousand




                                                                                                        Page 26
